<html>
<title> - OVERSIGHT HEARING ON THE USE OF OIL DISPERSANTS IN THE DEEPWATER HORIZON OIL SPILL</title>
<body><pre>[Senate Hearing 111-1246]
[From the U.S. Government Publishing Office]







                                                       S. Hrg. 111-1246

   OVERSIGHT HEARING ON THE USE OF OIL DISPERSANTS IN THE DEEPWATER 
                           HORIZON OIL SPILL

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON OVERSIGHT

                                and the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 4, 2010

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-697 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

                       Subcommittee on Oversight

               SHELDON WHITEHOUSE, Rhode Island, Chairman
TOM UDALL, New Mexico                JOHN BARRASSO, Wyoming
KIRSTEN GILLIBRAND, New York         DAVID VITTER, Louisiana
BARBARA BOXER, California (ex        JAMES M. INHOFE, Oklahoma (ex 
    officio)                             officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             AUGUST 4, 2010
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     4
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     5
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     7
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     8
Cardin, Hon. Benjamin L., U.S. Senator from the State of 
  Maryland, prepared statement...................................   116
Gillibrand, Hon. Kirsten, U.S. Senator from the State of New 
  York, prepared statement.......................................   117

                               WITNESSES

Anastas, Paul, Assistant Administrator, Office of Research and 
  Development, U.S. Environmental Protection Agency..............    10
    Prepared statement...........................................    12
    Responses to additional questions from Senator Boxer.........    20
    Response to an additional question from:
        Senator Carper...........................................    22
        Senator Sanders..........................................    22
    Responses to additional questions from:
        Senator Gillibrand.......................................    22
        Senator Inhofe...........................................    26
Westerholm, David, Director, Office of Response and Restoration, 
  National Ocean Service, National Oceanic and Atmospheric 
  Administration, U.S. Department of Commerce....................    29
    Prepared statement...........................................    31
    Responses to additional questions from Senator Boxer.........    40
    Response to an additional question from Senator Sanders......    44
    Responses to additional questions from:
        Senator Gillibrand.......................................    44
        Senator Inhofe...........................................    46
Kendall, Ronald J., Ph.D., Director, the Institute of 
  Environmental and Human Health, and Professor and Chairman, 
  Department of Environmental Toxicology, Texas Tech University..    66
    Prepared statement...........................................    69
    Responses to additional questions from:
        Senator Boxer............................................    76
        Senator Sanders..........................................    79
        Senator Inhofe...........................................    82
Smith, David C., Ph.D., Professor and Associate Dean, Graduate 
  School of Oceanography, University of Rhode Island.............    85
    Prepared statement...........................................    87
    Responses to additional questions from Senator Boxer.........    89
    Response to an additional question from:
        Senator Sanders..........................................    90
        Senator Inhofe...........................................    90
Overton, Edward B., Ph.D., Professor Emeritus, Louisiana State 
  University Department of Environmental Sciences, School of the 
  Coast and Environment..........................................    92
    Prepared statement...........................................    94
    Response to an additional question from Senator Sanders......    98
    Responses to additional questions from Senator Inhofe........    99
Savitz, Jacqueline, Senior Campaign Director, Oceana.............   101
    Prepared statement...........................................   103

 
   OVERSIGHT HEARING ON THE USE OF OIL DISPERSANTS IN THE DEEPWATER 
                           HORIZON OIL SPILL

                              ----------                              


                       WEDNESDAY, AUGUST 4, 2010

                               U.S. Senate,
         Committee on Environment and Public Works,
                                 Subcommittee on Oversight,
                                                    Washington, DC.
    The Committees met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. Sheldon Whitehouse 
(Chair of the Subcommittee) presiding.
    Present: Senators Whitehouse, Boxer, Inhofe, Lautenberg, 
Carper, and Barrasso.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thank you so much.
    I want to thank Chairman Whitehouse for his excellent 
leadership of the Oversight Subcommittee. And this hearing is 
part of the Environment and Public Works oversight of the 
Federal Government's response to the Deepwater Horizon 
disaster.
    Today we will be examining the issues surrounding the use 
of chemical dispersants in dealing with the Deepwater spill, 
which we now know is the largest of its kind in history, 
totaling an estimated $4.9 million barrels of crude oil--more 
than 200 million gallons. As of August 3, 2010, the Unified 
Command reports that BP has used an extraordinary quantity of 
dispersants in dealing with the Gulf spill--1.8 million gallons 
altogether, including 1.1 million gallons applied on the 
surface and almost 780,000 gallons beneath the surface of the 
sea.
    Dispersants work like detergents, breaking up oil into 
smaller droplets which may end up suspended in the water column 
beneath the surface. While this massive application of 
dispersants was carried out in the hopes of protecting the 
shoreline from oil slicks, it does raise serious questions 
about short- and long-term impacts on the environment and about 
unintended consequences.
    For example, while dispersants may have been applied in the 
hope of reducing the effects of heavy oil slicks on shorelines 
and wildlife, more needs to be done to fully understand the 
impact that dispersants and dispersed oil are having beneath 
the surface. These decisions have very real consequences, not 
just for fish and wildlife that inhabit the Gulf but for the 
fishermen and the oystermen and others whose livelihoods and 
families depend on the long-term health of the Gulf of Mexico.
    Questions have also been raised about the process the 
incident command and Federal agencies used for approving 
dispersant use. Our witnesses today will address what we know 
about dispersants, what we have learned over the past 3 months 
since the start of the disaster. Just as important, they will 
speak to what we do not yet know about dispersants in oil and 
what we need to do to find the answers.
    This Committee has already approved important legislation, 
sponsored by Senator Shaheen, to support greater investments in 
research on oil spills and spill response. More remains to be 
done. Today's hearing is an important step in getting answers 
to the questions raised by this unprecedented disaster. And 
since we have a joint hearing, full Committee and the 
Subcommittee, and I have asked Senator Whitehouse to chair it, 
I will turn back to him.
    Senator Whitehouse. I will yield to the Ranking Member.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. All right, for an opening statement. Thank 
you, Mr. Chairman, for scheduling today's hearing. I think this 
is significant, on the use and impacts of the oil dispersants 
to mitigate the BP oil spill.
    Following the tragic Exxon Valdez oil spill, the National 
Contingency Plan was updated to address new issues that might 
arise in the event of an oil spill of national significance. I 
remember that well, and I remember being up there at the time, 
20 years ago, when that happened.
    Among other things, the NCP was amended to require a pre-
approved list of dispersants deemed safe for emergency use by 
the Environmental Protection Agency. By creating a pre-approved 
list, oil spill responders have an effective tool to fight the 
devastating effects of an oil spill quickly and without 
bureaucratic delay.
    Let me be clear: nobody is advocating for the use of 
dispersants unless they are absolutely necessary. But with the 
BP disaster, they appear to be the lesser of two evils. I am 
disappointed that this important tool, which was first approved 
for use by the EPA, then-Administrator, Carol Browner, in 1994, 
was implemented in fits and starts. The EPA first approved, 
then stopped, then approved again the use of dispersants.
    I am concerned that the EPA's back and forth, which runs 
counter to having a list of approved prior to the emergency, 
may have exasperated the damages caused by the BP spill. The 
Administration's are somewhat baffling, considering top 
officials have clearly stated that dispersants are safe and 
effective. Carol Browner, now President Obama's energy and 
climate change czar, has been quoted comparing dispersants to 
dish soap and just last week said, ``We have been using 
dispersant. We do monitor, the EPA monitors regularly. Right 
now, they are not seeing anything of concern. NOAA is also 
monitoring. They are not seeing anything of concern, and right 
now the monitoring is telling us that everything is OK. But we 
will continue to monitor.''
    EPA Administrator Lisa Jackson said, ``We know that 
dispersants are less toxic than oil and that they break down 
over a period of weeks, rather than remaining for several years 
as untreated oil might.'' In a report last Tuesday, the NOAA 
Administrator stated, ``The light crude oil is biodegrading 
quickly. We know that a significant amount of oil has dispersed 
and been biodegraded by naturally occurring bacteria.''
    The current dispersant being used was formulated following 
the Exxon Valdez spill and approved by the EPA for use in 1994. 
This dispersant is currently approved for use in 28 countries, 
and 30 groups have access to samples as well as complete access 
to its ingredients and mixtures. These groups include 16 
academic institutions, multiple Federal agencies, including 
numerous divisions in regions of EPA, and five departments 
within the State government of Louisiana.
    Legislation covering dispersants has now been introduced in 
the Senate and passed in the House. The House-passed language 
institutes a 2-year moratorium on dispersants and requires full 
public disclosure of ingredients. This would greatly limit our 
ability to respond to any potential future spills, and could 
drastically diminish our domestic manufacture and supply of 
dispersants in the future.
    Clearly, there are uncertainties due to the volume and 
method of use of dispersants in this current response effort. 
But we must be measured in how we address these uncertainties, 
because we could ultimately do more harm than good.
    I applaud Senator Lautenberg's efforts in drafting a more 
reasoned alternative to the House bill. At this point, based on 
the extensive Federal research on dispersants initiated after 
the BP spill, I am not sure if Senator Lautenberg's legislation 
is needed.
    I also have some additional concerns with aspects of the 
bill, but will continue to study the issue. I commit today to 
work with Senator Lautenberg on a bipartisan legislation and 
the need for it.
    So thank you very much, Mr. Chairman.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Thank you, Madam Chair, for scheduling today's important 
hearing to examine the use and impacts of oil dispersants to 
mitigate the BP oil spill. Following the tragic Exxon Valdez 
oil spill, the National Contingency Plan (NCP) was updated to 
address new issues that might arise in the event of an oil 
spill of national significance. Among other things, the NCP was 
amended to require a pre-approved list of dispersants deemed 
safe for emergency use by the Environmental Protection Agency. 
By creating a pre-approved list, oil spill responders have an 
effective tool to fight the devastating effects of an oil spill 
quickly and without bureaucratic delay.
    Let me be clear: nobody is advocating for the use of 
dispersants unless they are absolutely necessary, but with the 
BP disaster they appear to be the lesser of two evils. I am 
disappointed that this important tool--which was first approved 
for use by EPA and then-Administrator Carol Browner in 1994--
was implemented in fits and starts. EPA first approved--then 
stopped--then approved again the use of dispersants. I am 
concerned that EPA's back and forth--which runs counter to 
having a list approved prior to an emergency--may have 
exacerbated the damages caused by the BP spill.
    The Administration's actions are somewhat baffling 
considering top officials have clearly stated that dispersants 
are safe and effective. Carol Browner, now President Obama's 
Energy and Climate Change Czar, has been quoted comparing 
dispersants to dish soap and just last week said, ``We have 
been using dispersant. We do monitor; the EPA monitors 
regularly. Right now they're not seeing anything of concern. 
NOAA is also monitoring. They're not seeing anything of 
concern, and right now the monitoring is telling us that 
everything is OK, but we will continue to monitor.'' EPA 
Administrator Lisa Jackson said, ``We know that dispersants are 
less toxic than oil,'' and that they ``break down over a period 
of weeks, rather than remaining for several years as untreated 
oil might.'' In a report last Tuesday, NOAA Administrator Jane 
Lubchenco said, ``The light crude oil is biodegrading quickly . 
. . we know that a significant amount of the oil has dispersed 
and been biodegraded by naturally occurring bacteria.''
    The current dispersant being used, Corexit 9500, was 
formulated following the Exxon Valdez spill and approved by EPA 
for use in 1994. This dispersant is currently approved for use 
in 28 countries, and 30 groups have access to samples as well 
as complete access to its ingredients and mixtures. These 
groups include 16 academic institutions, multiple Federal 
agencies, including numerous divisions and regions of EPA, and 
5 departments within the State government of Louisiana. 
Legislation covering dispersants has now been introduced in the 
Senate and passed in the House. The House-passed language 
institutes a 2-year moratorium on dispersants and requires full 
public disclosure of ingredients. This would greatly limit our 
ability to respond to any potential future spills and could 
drastically diminish our domestic manufacture and supply of 
dispersants in the future.
    Clearly there are uncertainties due to the volume and 
method of use of dispersants in this current response effort. 
But we must be measured in how we address these uncertainties 
because we could ultimately do more harm than good. I applaud 
Senator Lautenberg's efforts in drafting a more reasoned 
alternative to the House bill. At this point, based on the 
extensive Federal research on dispersants initiated after the 
BP spill, I'm not sure if Senator Lautenberg's legislation is 
needed. I also have some additional concerns with aspects of 
the bill but will continue to study this issue, and I commit 
today to work with Senator Lautenberg on bipartisan legislation 
if there's a need for it.
    Thank you.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Chairman Boxer, Ranking Member Inhofe, 
thank you for holding this joint hearing.
    When the Deepwater Horizon oil rig exploded, it took 11 
lives and triggered a chain of events that have led to what may 
be the largest and most destructive environmental disaster in 
our history. Thankfully, after 3 long months of oil 
continuously geysering from the depths of the Gulf, a temporary 
cap stemmed the flow, and it appears that the well is now on 
its way to being killed.
    But we are by no means through this disaster. At the 
surface, oil continues to lap at the shores of the Gulf. Oil 
continues to travel with the current to convergence zones in 
the Gulf, where it concentrates in areas scientists refer to as 
Sargasso seaweed beds, areas where sea life is most abundant. 
It continues to coat and kill diving birds and marine mammals.
    In something of a grand experiment, 1.8 million gallons of 
dispersant was used to break up the oil into smaller particles 
to increase the surface area of the oil and facilitate the 
natural degradation and digestion of the oil. Approximately 40 
percent was applied in a totally unprecedented manner: at 
depth, 1 mile below the surface of the Gulf water, at the 
wellhead. This was done so that the oil would never reach the 
surface, or if it did, it would do so in a dispersed and less 
visible form.
    The subsurface application of dispersants is why we are 
seeing less oil on the surface of the Gulf than we expected. 
However, it is unclear if this will limit the damage from the 
spill or cause even greater harm. We are now seeing large 
quantities of oil present in the water column, and it could 
already be starting to settle onto the sea floor. We don't know 
yet what effect this could have on the Gulf ecosystem from the 
plankton that form the base of the food chain on up to the apex 
species, including the bluefin tuna and the sperm whale.
    Two types of chemical dispersant have been used in response 
to this spill. One dispersant, Corexit 9527, was identified as 
highly toxic about 1 month into its use. When EPA asked BP to 
identify less toxic alternatives, BP responded that these were 
the most effective dispersants available and that very little 
was known about the relative toxicity of alternatives.
    EPA then took on the task to analyze the available 
alternatives. That analysis was completed yesterday, 3 months 
after the spill began. While this was a necessary undertaking, 
it is regrettable that this analysis was not available before 
the spill began. We still know very little about the long-term 
ecological impact of using so much dispersant on top of so much 
oil. Whether to use dispersants, which dispersants to use, when 
to use them, these are all difficult decisions, and more 
difficult when made on the fly and without prior review from 
agencies responsible for protecting our health and natural 
resources.
    I look forward to hearing the testimony of NOAA and EPA and 
of the scientists and policymakers on our second panel. In 
particular, I want to thank and welcome Dr. David Smith from 
the Graduate School of Oceanography of the University of Rhode 
Island, for being here. My wife is a graduate of the Graduate 
School of Oceanography. I can remember lugging buckets of 
saltwater around those labs as a young man, helping her with 
her experiments.
    Senator Carper. Was that part of the courtship?
    [Laughter.]
    Senator Whitehouse. The key part, actually, was the winter 
diving. I wasn't as up for that as you might expect.
    [Laughter.]
    Senator Whitehouse. But I did it. When that wetsuit first 
fills, it is mighty chilly in February on Narragansett Bay. It 
is remarkable what one will do for love.
    [Laughter.]
    Senator Whitehouse. Anyway, I look forward to a frank 
discussion about the consequences of dispersant use and how to 
improve the dispersant approval regime. We owe this to the 
communities along the Gulf Coast, but we also owe it to all 
Americans to assure them that we are prepared the next time 
such a disaster strikes.
    And again, I thank my colleagues on the Committee and the 
Subcommittee.
    Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Mr. Chairman. My thanks to both 
you and Senator Boxer for holding the hearing. I want to thank 
our witnesses for coming today and for your testimony and your 
responses to our questions.
    I have mentioned before, we try to start all these hearings 
on this subject just by again expressing our heartfelt sorrow 
to those who have lost loved ones and families that are 
suffering from the loss of their loved ones in this terrible 
accident and also to just say that our hearts are filled for 
those who live in the Gulf, who work in the Gulf and whose 
livelihoods, whose lives have been in many cases disrupted or 
turned on their heads.
    With that having been said, I come from a coastal State, a 
little coastal State in the mid-Atlantic. I think I understand 
many be better than some folks who live in the middle part of 
this country what the importance is for shorelines to our 
economy, not just to Delaware's economy, but to our Nation's 
economy.
    Our oceans, whether the Atlantic or the Pacific or others, 
our oceans and our shores give life to many industries, to 
tourism, to recreation and the fishing industry, 
transportation, construction, research, education, real estate, 
many, many more. So we all have to work together to make sure 
that the laws and regulations we have in place protect these 
critical industries and our lives from harm in a fair and a 
real way.
    One of the lessons that I have learned as a Chair of the 
Subcommittee on Clean Air and Nuclear Safety, where we oversee 
the Nuclear Regulatory Commission, is the importance of 
effective regulatory oversight to ensure that we avoid future 
accidents in the first place. And through strong oversight and 
research I hope we can develop greener, more effective response 
measures going forward.
    With the unprecedented amount of oil that has leaked and 
the unprecedented efforts to clean up the oil, safeguarding 
public health and the health of our ecosystem is a very real 
concern. Despite the best efforts of our Nation's best 
environmental scientists, some of whom are here today, to help 
us understand the environmental impacts of this spill. The 
reality is that we do not know and we may not know for some 
time the long-term effects of this disaster.
    Specifically, I look forward today to hearing more from our 
witnesses about the EPA's efforts to oversee the deployment of 
chemical dispersants currently being used to clean up oil in 
the Gulf. On the one hand, our understanding is that the impact 
of oil on our shores would have been much greater without the 
dispersants. On the other hand, much is still unknown about the 
impacts of these dispersants over the long-term health of our 
marine environment.
    I want to hear from our talented and distinguished 
scientists we have assembled today what their best 
understanding is of the impact that those underwater 
dispersants are having on marine life as well as their 
potential impact on human health. While I firmly believe that 
we must use all resources at our disposal to mitigate the 
efforts of this disaster, I feel strongly that we must do so 
prudently and with the best information that is at our 
disposal.
    Today I hope we will discuss what steps the Federal 
Government can take to minimize the damage of the spill, to 
avoid an accident like this from occurring again in the first 
place through effective regulatory oversight, and to ensure the 
safe and effective use and advancement of tools that are at our 
disposal, or that will come to be at our disposal in the future 
as we seek to clean up this spill and any that may occur in the 
future.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Carper follows:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    I want to thank the Chairman for holding this hearing today 
and thank the witnesses for participating.
    As I have mentioned before, our hearts go out to the folks 
impacted by this terrible accident--to the families of the 11 
workers that died and those that were injured.
    And our hearts also go out to the thousands of workers, 
individuals, and families in the Gulf of Mexico who depend on 
the Gulf's waters and shores for their economic livelihood.
    As a member from a coastal State, I understand well the 
importance of our shorelines to our local and national 
economies.
    Our oceans and shores give life to many industries: tourism 
and recreation, the fishing industry, transportation, 
construction, research and education, real estate, and many 
more.
    And so we must work to make sure that the laws and 
regulations that we have in place protect these critical 
industries from harm in a fair and real way.
    One of the lessons that I have learned as Chairman of the 
Subcommittee on Clean Air and Nuclear Safety, where I oversee 
the Nuclear Regulatory Commission, is the importance of 
effective regulatory oversight to ensure that we avoid future 
accidents in the first place.
    Through strong oversight and research I hope we can develop 
greener, more effective response measures going forward.
    With the unprecedented amounts of oil leaked and the 
unprecedented efforts used to clean up the oil, safeguarding 
public health and the health of our ecosystems is a very real 
concern.
    Despite the best efforts of our Nation's best environmental 
scientists--some of whom are here today--to help us understand 
the environmental impacts of this spill, the reality is that we 
do not know--and we may not know for years to come--the long-
term effects of this disaster.
    Specifically, I look forward today to hearing more about 
the EPA's efforts to oversee the deployment of chemical 
dispersants currently being used to clean up the oil in the 
Gulf.
    On one hand, my understanding is that the impact of oil on 
our shores would have been much greater without dispersants. On 
the other hand, much is still unknown about the impacts of 
these dispersants over the long-term.
    I want to hear from the talented and distinguished 
scientists we have assembled what their best understanding is 
of the impact that these underwater dispersants are having on 
our marine life, as well as their potential impact on human 
health.
    While I firmly believe that we must use all the resources 
at our disposal to mitigate the effects of this disaster, I 
feel strongly that we must do so prudently and with the best 
information at our disposal.
    Today, I hope we will discuss what steps the Federal 
Government can take to minimize the damage of this spill, to 
prevent an accident from occurring again in the first place 
through effective regulatory oversight, and to ensure the safe 
and effective use and advancement of tools at our disposal to 
clean up the oil.

    Senator Whitehouse. Senator Barrasso, my Ranking Member on 
the Subcommittee.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
            U.S. SENATOR FROM THE STATE OF WYOMING.

    Senator Barrasso. Thank you very much, Mr. Chairman. I 
thank our guests for being here today.
    The ecological fallout of the oil spill in the Gulf is not 
yet fully understood. There was a front page story in the New 
York Times today above the fold, U.S. Report, says the oil that 
remains is scant new risk, concern still exists, 26 percent of 
spill is left but is seen as diluted and breaking down. So we 
still don't fully understand the fallout of the oil spill in 
the Gulf.
    Clearly, we do need to thank those who responded for their 
hard work in the Gulf. The responders in the Gulf were faced 
with a choice. On the one hand, they could allow millions of 
gallons of oil to pollute the beaches and the marshes and the 
wetlands. This would include the potential devastation of the 
wildlife in the area. It would also include hurting jobs in the 
fishing and tourism industry and in the towns that depend on 
those same industries to provide a tax base from which to pay 
for schools and for emergency services.
    On the other hand, the responders could choose to use 
approved chemical dispersants to break down the oil so bacteria 
could deal with the problem and prevent some of those tragic 
consequences from occurring. The amount of dispersant they 
would need to use would be unprecedented. But the dispersant at 
their disposal had been approved by the Clinton 
administration's Environmental Protection Agency in 1994. 
Responders knew the use of dispersants to address massive oil 
spills is a well-documented practice. So responders chose the 
latter. And I think they made the right choice.
    But don't take my word for it. In terms of the choice 
between using dispersants and allowing oil to devastate the 
Gulf's economy, beaches, and habitat, White House Press 
Secretary Robert Gibbs said, ``I think far and away the most 
harmful substance that is being emitted into the environment in 
the Gulf is the oil.'' EPA Administrator Lisa Jackson agreed 
when she said, ``This spill is an emergency in every sense of 
the word, and dispersants are one tool in the situation that 
could not be more urgent.''
    The Wall Street Journal on August 2nd also quoted an EPA 
statement that said that the Agency ``believes dispersant use 
has been an essential tool in mitigating the spill's impact.'' 
And even Admiral Thad Allen of the U.S. Coast Guard called this 
a legitimate alternative. He says that a legitimate alternative 
to the dispersant has not surfaced yet.
    So I would suggest that those who criticize the use of 
dispersants are the same people who cannot offer one 
alternative to the use of dispersants in this situation. They 
leave responders with a Catch-22: either you are blamed for 
dumping chemicals in the Gulf or you allow the oil to devastate 
the Gulf. Some who criticize the use of dispersants want to 
over-regulate the use of them. There is no proven need for such 
an action at this time. In fact, the sponsors of such 
legislation have language included in their bill that has the 
EPA do ``an assessment of the adequacy of existing Federal 
laws.''
    If there are truly lessons to be learned from the response 
to this spill, let's learn them. However, legislating new 
dispersant regulations before we even know how existing law is 
working does not make sense to me. It would only serve to 
create more regulations and slow the response to any future 
spills.
    I thank you, Mr. Chairman, and look forward to hearing the 
testimony.
    Senator Whitehouse. Senator Lautenberg.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman.
    I first want to say thank you to Senator Inhofe, for his 
willingness to examine the possibilities of the dangers and 
risks associated with the dispersants and see what we ought to 
do about it.
    Added to the woes and the horror of the largest accidental 
oil spill in the history of the world, oil pouring into the 
Gulf of Mexico, BP rushed in to apply chemical dispersants in 
order to break the oil slicks into small droplets. To date, BP 
has applied almost 2 million gallons of chemical dispersants to 
deal with the Deepwater disaster. Never before have we seen 
dispersants used on this scale.
    It is no wonder that EPA issued a directive on May 19th for 
BP to find less toxic alternatives to the oil company's choice 
of dispersants. However, BP said there wasn't enough long-term 
testing data available on dispersants to know which ones were 
safer to use. So they kept using the same dispersants.
    The truth is, with only minimal toxicity data available, 
and no requirements for full disclosure of ingredients, the 
damage these dispersants could cause to the environment, marine 
life, and potentially people, remains a mystery. That is why 
last week I introduced the Safe Dispersant Act. This common 
sense bill requires long-term testing of dispersants, which is 
critical to understanding the full range of their health 
effects.
    If a dispersant cannot meet minimum toxicity standards, 
then the dispersant should not be used on an oil spill. My bill 
also protects the public's right to know by requiring the 
disclosure of all ingredients that make up a dispersant.
    The bill is endorsed by over 30 health and environmental 
groups, including the Environmental Defense Fund, Natural 
Resources Defense Council, and Oceana, to name a few. I ask 
unanimous consent that their letter of support be inserted into 
the record.
    Senator Whitehouse. Without objection, so ordered.
    [The referenced material was not received at time of 
print.]
    Senator Lautenberg. EPA Administrator Lisa Jackson has also 
stated that the law needs to be changed to provide more 
information on the safety of dispersants. Almost everyone 
agrees that current law is inadequate; that is everyone except 
Rush Limbaugh. Earlier this week we heard him say that Mother 
Nature can handle the dispersants. It is callous, 
irresponsible, and I doubt that families in the area are 
willing to wait and see to find out whether or not there is any 
risk in the distribution of these dispersants.
    The fact is relief workers and wildlife in the Gulf have 
become unwitting participants in a dangerous science 
experiment. There are enough warning signs about the risks of 
the dispersants to know that we need more thorough testing. For 
example, my State, the State of New Jersey, and by the way, I 
note that here I sit with two colleagues to the right of me and 
that we are the largest State. It is a very comforting feeling.
    We have to do more thorough testing. In my State, New 
Jersey, classifies one of the chemicals used in Gulf 
dispersants as a serious health hazard because of its potential 
to cause cancer, liver and kidney damage, and reproductive 
problems. So Mr. Chairman, I hope we can move quickly. This was 
an excellent idea by the Chairman of the full Committee and 
yourself to get moving on this. I hope we can move quickly 
enough to require better testing and shine some light on these 
dispersants once and for all and lift the veil of mystery that 
surround it.
    Thank you.
    Senator Whitehouse. Thank you, Senator Lautenberg.
    Our first witness is Dr. Paul Anastas. He is the Director 
of the Office of Research and Development at the United States 
Environmental Protection Agency. He has extensive previous 
experience, including a role in the White House at the Office 
of Science and Technology Policy as the Assistant Director for 
the Environment from 1999 to 2004.
    We welcome here, and look forward to your testimony, Dr. 
Anastas.

 STATEMENT OF PAUL ANASTAS, ASSISTANT ADMINISTRATOR, OFFICE OF 
 RESEARCH AND DEVELOPMENT, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Anastas. Thank you very much, Chairman Boxer, Ranking 
Member Inhofe, Senator Whitehouse, members of the Committee. 
Thank you for having me here to testify about dispersants and 
their use in the BP Deepwater Horizon crisis.
    We have now passed day 100 of the BP oil spill tragedy, a 
tragedy that resulted in loss of life, livelihood, and put our 
most precious ecosystems in peril. We are relieved that the 
well is currently sealed and that dispersant use has been 
reduced to zero. We hope and expect this will continue to be 
the case.
    However, the tragedy does not end with the sealing of the 
well. The President and the EPA are committed to the long-term 
recovery and restoration of the Gulf Coast, one of our most 
precious ecosystems.
    In addition to its other responsibilities with spill 
response, EPA continues to rigorously monitor air, water, and 
sediments for the presence of dispersants and crude oil 
components that could have an impact on health or the 
environment. This data is posted on EPA's Web site and is 
publicly available.
    EPA has a role with the use of dispersants, which are 
chemicals that are applied to the oil to break it down into 
small droplets. The dispersed oil mixes into the water column 
and is rapidly diluted and degraded by bacteria and other 
microscopic organisms.
    Specifically, EPA is responsible for managing the product 
schedule of dispersants available for use in oil spill 
response. When considering dispersant use, we are faced with 
environmental trade-offs. The long-term effects on aquatic life 
are still significantly unknown. And BP has used over 1.8 
million gallons of dispersant, a volume never before used in 
the United States.
    But what we do know right now is this. We aren't seeing 
dispersants in our monitoring results. There have been 
thousands of samples, both near shore and offshore. And we are 
not seeing the dispersants away from the wellhead. Thus far 
both monitoring data and modeling data shows that the 
dispersants are not persistent in the environment. Dispersants 
are not depleting oxygen in the water to dangerous levels.
    Now, given the unprecedented nature of the spill, the EPA 
directed BP to identify less toxic alternative dispersants. 
When the company failed to provide this information, EPA 
decided to conduct this testing independently, in a rigorous, 
peer-reviewed manner. Specifically, EPA conducted acute 
toxicity tests to determine lethal concentrations of eight 
available dispersants. First, we tested each of the eight 
dispersants alone. Then we tested the Louisiana sweet crude oil 
alone. Finally, we tested the mixture of the oil and the 
dispersants.
    Each standard test screened a species known as mysid shrimp 
and silverside fish to determine the relative hazard of each of 
these dispersants. These two species are widely considered to 
be representative of those found in the Gulf and were tested 
during the juvenile life stage when organisms are sensitive to 
pollutant stress.
    The tests were conducted over a range of concentrations, 
including those much greater than what aquatic life is 
generally expected to encounter in the Gulf. EPA's testing 
delivered three important results. One, all of the dispersants 
were tested alone, can be categorized as slightly toxic to 
practically non-toxic. Two, the oil alone was generally 
moderately toxic. Three, mixtures of oil in each of the eight 
dispersants were no more toxic than the oil alone.
    All of these results indicate that the eight dispersants 
tested possess roughly similar acute toxicities.
    While these data are important, I want to emphasize that 
continued monitoring is absolutely necessary. EPA has directed 
BP to monitor for indicators of environmental stress like 
decreased dissolved oxygen levels and increased toxicity to 
small organisms called rotifers. To date, we have not seen 
dissolved oxygen levels approach levels of concern to aquatic 
life. We have also seen no excessive mortality in rotifers.
    While more work needs to be done, we see that the 
dispersants are working to help keep the oil off our precious 
shoreline and away from sensitive coastal ecosystems. To date, 
EPA monitoring has not found dispersant chemicals in water or 
sediment near the coasts or wetlands.
    The crisis has made it evident that additional research is 
needed. Congress has recently appropriated EPA $2 million to 
begin long-term study on the impacts of dispersants. These 
funds will support research on the short- and long-term 
environmental and human health impacts associated with the oil 
spill and dispersant use.
    We will also further our research efforts to include 
innovative approaches to spill remediation and to address the 
mechanisms of environmental fate, effects, and transport of 
dispersants.
    EPA will continue to take a science-based approach to 
dispersant use. We will continue monitoring, identifying and 
responding to public health and environmental concerns, 
including waste management and beach clean up and coordination 
with our Federal, State and local partners. EPA is committed to 
protecting the Gulf Coast communities from adverse 
environmental effects of the Deepwater Horizon oil spill.
    In conclusion, we will persist in asking the hard questions 
until we more fully understand the long-term effects of the BP 
oil spill and conduct investigations required to enable the 
Gulf's long-term recovery. EPA is fully committed to working 
with the people of the Gulf Coast, our Federal partners, the 
scientific community, and NGOs toward the recovery of the Gulf 
of Mexico and the restoration of that precious ecosystem.
    At this time, I will welcome any questions you may have.
    Thank you.
    [The prepared statement of Mr. Anastas follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        
    Senator Whitehouse. Thank you, Doctor.
    We will hear now from Mr. David Westerholm, who is the 
Director of the Office of Response and Restoration at the 
National Oceanic and Atmospheric Administration. After a brief 
hiatus in the private sector, he came to that position from a 
27-year career in the Coast Guard. We welcome his testimony.
    Mr. Westerholm.

STATEMENT OF DAVID WESTERHOLM, DIRECTOR, OFFICE OF RESPONSE AND 
   RESTORATION, NATIONAL OCEAN SERVICE, NATIONAL OCEANIC AND 
    ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Mr. Westerholm. Good morning, Chairman Whitehouse, 
Chairwoman Boxer, and members of the Committee and 
Subcommittee. Thank you for the opportunity to testify on the 
National Oceanic and Atmospheric Administration's role in the 
Deepwater Horizon BP oil spill response and the use of 
dispersants.
    I appreciate the opportunity to discuss the critical roles 
NOAA serves during oil spills and the importance of our 
contributions to protect and restore natural resources, 
communities, and economies affected by this tragic event.
    The Deepwater Horizon spill is a stark reminder that large 
oil spills still occur and that we must rebuild and maintain 
our response capacity. When an oil spill does occur, there are 
no good outcomes. Once oil has spilled, responders and a 
variety of spill countermeasures are used to reduce the adverse 
effects of the spilled oil on the environment. The goal of the 
Unified Command is to minimize that environmental damage and 
speed recovery of injured resources.
    Under the Clean Water Act the EPA is required to prepare 
and maintain a schedule of dispersants and other mitigating 
devices and substances that may be used to carry out the 
National Contingency Plan. This plan requires a Regional 
Response Team, in which NOAA and the States participate, to 
plan the use for or non-use of dispersants in advance of spills 
to ensure that the trade-off decisions between water column and 
surface and shoreline impacts are deliberated.
    Additionally, NOAA's scientific support team is designated 
as a special team under this plan and provides a broad array of 
scientific services to the response, including recommendations 
to the Federal on-scene coordinator on the appropriate use of 
dispersants. NOAA is also a member of the Special Monitoring of 
Applied Response Technology programs, known as SMART, which is 
an interagency cooperatively designed program to monitor the 
efficacy of dispersants in situ burning operations.
    For the Deepwater Horizon spill the Unified Command's 
response posture has been to fight the spill offshore and 
reduce the amount of oil that comes ashore, using a variety of 
countermeasures, including subsurface recovery, booming, 
skimming, burning, and dispersants. No single response is 100 
percent effective, and each has its own window of opportunity, 
defined by the state of oil and weather and sea state, thereby 
establishing a need to consider the use of all available 
methods. Chemical dispersants can be an effective tool in the 
response strategy, but like all methods, involve trade-offs in 
terms of effectiveness and potential for collateral impacts.
    Consideration of what we have learned from both research 
and real world experience has factored into the decisionmaking 
on the use of dispersants for the spill. Research on the 
effectiveness and effects of dispersants and dispersed oil has 
been underway for more than three decades, but vital gaps still 
exist.
    For example, while numerous studies have been conducted on 
the fate and transport of oil dispersed on the surface, areas 
such as the rate of biodegradation and dispersed oil modeling 
in deeper waters are much less understood. One area of focus 
has been on determining toxicity and long-term effects of 
dispersants and dispersed oil on sensitive marine life. We also 
know that effectively dispersed oil will decline more rapidly 
in concentration than untreated surface or shoreline oil due to 
ocean mixing and biodegradation.
    The effects of the dispersed oil on marine life depend on 
concentration and duration of exposure of organisms to the 
dispersed oil. At the sea surface, early life stages of fish 
and shellfish are much more sensitive than juveniles or adults 
to dispersants and dispersed oil. This increased sensitivity, 
coupled with the fact that these organisms reside just below 
the surface of the ocean where the concentrations of dispersed 
oil are initially the greatest, means that these organisms are 
most likely to be impacted.
    There are no data on the toxicity of dispersed oil to deep 
sea biota any life stage. So we have to make inferences based 
on the existing body of research. However, at both the surface 
and the subsurface, modeling and monitoring are confirming that 
dispersed oil concentrations decline rapidly with distance from 
the wellhead as the oil mixes with seawater and moves with the 
currents away from the treatment areas.
    NOAA has been conducting chemical analysis of seafood 
collected in the aftermath of the Deepwater Horizon incident. 
Seafood samples consisting of fin fish, shrimp, and oysters are 
analyzed for polycyclic aromatic hydrocarbons, or PAHs, to 
determine the uptake of these PAHs present in oil by marine 
species. To date, none of the seafood samples analyzed have PAH 
concentrations that exceed NOAA and FDA guidelines, ensuring 
seafood reaching the marketplace is safe to eat.
    To conclude, as the response to this oil spill continues, 
the Unified Command will continually reevaluate our response 
strategies, action, and planning. NOAA will continue to provide 
scientific support to Unified Command and work with our co-
trustees on the natural resource damage assessment.
    I would like to assure you that we will not relent in our 
efforts to protect the livelihoods of Gulf Coast residents and 
mitigate the environmental impacts of this spill. Thank you for 
allowing me to testify on NOAA's response. I am happy to answer 
any questions that you may have.
    [The prepared statement of Mr. Westerholm follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
        
    Senator Whitehouse. Chairman Boxer.
    Senator Boxer. Thank you.
    Thank you both. I agree with Senator Barrasso's comments 
that there were tough choices to be made as to how you deal 
with this. And you had to look at everything that was 
available.
    I do, however, have some questions about the dispersants 
themselves. And I guess I am going to ask the EPA to comment, 
and then of course if NOAA has a comment as well.
    My understanding is that Corexit 9527 was the first 
dispersant that was used. Is that correct?
    Mr. Anastas. That is correct, Senator.
    Senator Boxer. Then after 30 days they switched to Corexit 
9500?
    Mr. Anastas. That is correct.
    Senator Boxer. And I have here the company's data sheet on 
these two choices here. And the first one, the hazardous 
ingredient--and I may not say it right, I will try, 
butoxyethanol. That was the first one. And my understanding is 
that it is a known hazardous substance that causes liver and 
kidney damage and internal bleeding, is that correct, if there 
is over-exposure?
    Mr. Anastas. Yes.
    Senator Boxer. Then the switch was made to Corexit 9500, 
and the active ingredient then was light petroleum distillates, 
basically kerosene. Is that correct?
    Mr. Anastas. That is not an active ingredient. It is a 
solvent in the formulation.
    Senator Boxer. But is that the main part of it, the 
kerosene?
    Mr. Anastas. The petroleum distillates is a fraction of 
oil, like kerosene, it is not an active ingredient, it is the 
solvent.
    Senator. OK. Well, are you aware that on their own sheets, 
they describe their own product, human health hazard, they 
define it as acute in each case. Are you aware of that?
    Mr. Anastas. Yes.
    Senator Boxer. And were you on the ground, was BP or the 
Coast Guard, who was in charge as far as you know, letting 
people know about the warnings that are on these substances?
    Mr. Anastas. On the ground, I believe that there was, all 
of the available information was being shared, to the best of 
my knowledge.
    Senator Boxer. To whom?
    Mr. Anastas. To the people on the ground.
    Senator Boxer. OK. Because it is important to note that in 
the case of Corexit 9527A, it said, repeated or excessive 
exposure may cause injury to red blood cells, kidney, or the 
liver. Do not get in eyes, on skin, on clothing. Do not take 
internally. Use with adequate ventilation. Wear suitable 
protective clothing. Flesh-affected areas, keep away from heat, 
keep away from sources of ignition.
    And the other, it says, keep container tightly closed, do 
not get on eyes, skin, or clothing. Avoid breathing the vapor. 
Use with adequate ventilation. In case of contact with eyes, 
rinse immediately, seek medical advice. After contact with 
skin, wash immediately.
    I make these points because the companies themselves have 
indicated there is an acute risk to human health. And so I want 
to make sure that we were letting people know. But to your 
knowledge, people were made known?
    Mr. Anastas. Yes. And also that OSHA was aware of these 
issues, and addressed them.
    Senator Boxer. OK. My understanding is that there are some 
communities involved here that are suing Corexit, because of--
do you have that paper, because I don't have it in front of me 
now. I will come back to that--here it is. Sorry. A personal 
injury lawsuit involving the chemical dispersant Corexit 9500 
was filed in Alabama, where two Gulf Coast residents of Alabama 
and property owners allege that BP's use of the product is 
causing people to get sick.
    Do you know, do either of you know, that people in Alabama 
have claimed that they have gotten ill and what those symptoms 
could be?
    Mr. Anastas. I will just say that I have seen those reports 
reported in the media, yes.
    Senator Boxer. But have you--do you know any more about 
that, what these symptoms are?
    Mr. Anastas. I have seen reported that people are reporting 
rashes. That people are reporting rashes and redness. People 
are reporting those effects.
    Senator Boxer. And in Alabama and Louisiana and different 
places?
    Mr. Anastas. Yes.
    Senator Boxer. How many people do you think have----
    Mr. Anastas. I do not have any numbers.
    Senator Boxer. Anything, do you know?
    Mr. Westerholm. No, I don't know.
    Senator Boxer. Then, a group of Louisiana oystermen are 
claiming that Corexit 9500 is four times more toxic than the 
oil itself. Do either of you believe that statement is true?
    Mr. Anastas. I have no data to support that statement.
    Senator Boxer. Do you know whether Corexit 9500 is more 
toxic than the oil itself?
    Mr. Anastas. I have data that I actually just reported that 
shows that the Corexit and the tests that we ran, on aquatic 
species, is less toxic than the oil itself.
    Senator Boxer. OK, so you disagree with them. Did you test 
it at different levels? What level did you test it at?
    Mr. Anastas. Yes, this went across a wide range of 
concentrations, many different levels, all the way from parts 
per billion----
    Senator Boxer. What was the lowest concentration that you 
tested it at?
    Mr. Anastas. Parts per billion.
    Senator Boxer. Did you consistently test at parts per 
billion?
    Mr. Anastas. So, what we did is we tested at parts per 
billion, and then you keep on increasing the concentration 
until you see a toxic effect. The way that these tests were run 
is that you continue to increase the concentration until your 
test species show a toxic effect.
    Senator Boxer. OK. I am going to place in the record a 
document from the Department of Health and Hospitals of 
Louisiana which says in summary, in Louisiana there have been 
334 reports. This is between, this is week 30 of the spill, 
ending July 31, 2010. There have been 334 reports of health 
complaints believed to be related to exposure to pollutants 
from the oil spill. Two hundred and fifty reports came from 
workers and 84 from the general population. Most frequent 
reports include headache, dizziness, nausea, vomiting, 
weakness, fatigue, upper respiratory irritation. Seventeen 
workers have had short hospitalizations. The general population 
complaints were related to odors.
    [The referenced material was not received at time of 
print.]
    Senator Boxer. I am concerned about the workers who got 
close to it. But you are saying that because, if you read these 
reports, I would also put in the record the reports from NALCO, 
the company itself.
    [The referenced material was not received at time of 
print.]
    Senator Boxer. You are saying that to your knowledge, the 
workers were warned; they had to wear protective gear, and they 
knew about this.
    Mr. Anastas. I am saying that I know that OSHA was actively 
involved in informing workers.
    Senator Boxer. Well, that is important.
    Last question, and then I will stop. In the Exxon Valdez 
case, in the impact on the fisheries, which Senator Barrasso 
was so right, we have to protect the jobs that are related to 
fishing, recreation, tourism, it took a long time to learn that 
some of the fisheries, especially the herring population, was 
just decimated. People lost everything. Because Exxon sued for 
20 years, and at the end of the day the average recovery for 
these people was just minuscule.
    So it took very long to find out the impact on the 
fisheries. Do we know--I would ask NOAA whether we know today 
that the fisheries are going to be fine, or do you think it is 
going to take time to know how much time, and are you 
continuing to monitor the various fisheries there?
    Mr. Westerholm. Senator, let me start with the last 
question, which was, are we monitoring, and the answer is yes. 
Then you asked how much time. I don't think I would be able to 
speculate at this time how much time it is going to take us to 
actually do all the testing necessary to see how fast those 
fisheries recovered.
    But certainly there was baseline data that was taken to 
compare it against, which was pre-spill or outside of the spill 
zone. We have historic data. And so what we are going to be 
looking at is a number of species and the impact on that, and 
the fishermen over the course of the next years.
    Senator Boxer. And what is your monitoring showing at this 
stage? Is anything showing up? Do you feel good about what you 
see?
    Mr. Westerholm. As you may be aware, at this point we still 
have a lot of the area of the Gulf, at least in Federal waters, 
that are closed to fishing. So some of the samples are just 
being collected now to see if it is safe to reopen those areas. 
So I think it is premature, again, to show if there was an 
impact of oil or dispersant on it.
    Senator Boxer. When do you think you will be able to make 
your first judgment on the state of the fishing industry?
    Mr. Westerholm. In those first, we have opened one area. 
Over the next month or so we will be able to get information on 
that.
    Senator Boxer. Good. And will you send us these monitoring 
results?
    Mr. Westerholm. Yes. In fact, they are being posted as we 
get them on our Web site and on geoplatform.gov.
    Senator Boxer. Thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Madam Chairman.
    If I could start with the EPA.
    Do you believe that the EPA has all the necessary ability 
right now to test, to research, and to understand and mitigate 
any negative impacts from the use of dispersants in the Gulf 
without additional legislation from Congress?
    Mr. Anastas. I think the Administrator has made it clear 
and stated publicly that when we look at the lessons learned 
that we do need to look back at how the National Contingency 
Plan brings us in the data that we need, the information that 
we need in order to make sound decisions going forward. I do 
believe that that is something that the Administrator has said 
on the record, and I agree with that.
    Senator Barrasso. You had a statement August 2nd, during 
your phase two testing of the dispersants, and you said the 
dispersants are working to keep oil away from the shore. You 
said dissolved oxygen levels have not fallen below levels of 
concern to aquatic life. You said dispersant plus oil mixtures 
have roughly the same toxicity as the oil itself, and that 
dispersants are less toxic than the oil being released into the 
Gulf.
    Would you go further to say that the use of the dispersants 
has been effective in terms of combating this oil spill and 
that it was the right call at the time, to the extent of the 
spill, to use the dispersants?
    Mr. Anastas. The decision to use dispersants was a decision 
not taken lightly. Any time you are faced with adding 
substances into an ecosystem like the Gulf of Mexico, that is 
something that needs to be done thoughtfully, and that is why 
the constant monitoring was put in place, and the 
thoughtfulness was put in place.
    That said, when you look at all of the tools to combat this 
tragedy, the skimming, the burning, the oil recovery, the 
containment, dispersants have shown to be one important tool in 
that tool box in the response.
    Senator Barrasso. I want to just read a quote if I could 
from EPA Administrator Lisa Jackson, and then at the end ask 
whether you agree with it. She said ``Science tells us that 
dispersants can help protect these invaluable resources by 
breaking up the oil and speeding its natural degradation 
offshore.'' She said ``We also know that dispersants, which are 
less toxic than oil, break down over a period of weeks rather 
than remaining for several years, as untreated oil might.''
    Do you agree with her comments and statement?
    Mr. Anastas. I agree with the statement of the 
Administrator.
    Senator Barrasso. Great.
    If I could go to NOAA, you said in your testimony that the 
response to date has been successful in limiting the shoreline 
impacts. You also said that no response method is 100 percent 
effective. So given the statements about the shoreline impacts, 
are the critics of the responders who use dispersants trying to 
make the perfect the enemy of the good here?
    Mr. Westerholm. That is a great question. I think I like to 
use the analogy of--and we talked about lesser of two evils. I 
don't know that I especially like that quote. But I like to use 
the analogy of maybe a medical doctor making a diagnosis on a 
particular disease, possibly cancer, where you have a lot of 
options, radiation, cut it out, chemotherapy. Over the years we 
have learned more and more and are able to apply better science 
to it. But at that moment in time you have to make the 
decision. You make that decision based on any number of options 
you have and tools that you have to combat it.
    So I would say that the decision, as Dr. Anastas pointed 
out, is not taken lightly, and that the Unified Command made 
that decision with a lot of factors in mind, which included the 
economic and ecological impacts that could have occurred or 
would likely occur without the use of dispersants, some of 
which were unprecedented in terms of deep, sub-sea, deepwater 
injection of dispersants.
    But I think in the aftermath of that, it would be difficult 
for me up here to second guess the decision process that was 
going on down there when given all the information that they 
had. So to answer your question, I believe that the application 
of dispersants, based on what we know about the other 
methodologies, did prohibit some of the oil from getting to the 
shoreline. The actual long-term impact and all that still needs 
to be studied, and in the future additional research will help 
us make those better decisions.
    Senator Barrasso. Great, thank you.
    Thank you, Mr. Chairman. It looks like my time is expired. 
Thank you.
    Senator Whitehouse. Thank you, Senator Barrasso.
    I hope that witnesses and the audience will forgive the 
constant bustle in and out of the Committee. We have two votes 
happening back to back on the floor. So I just rushed over to 
vote on the first one, and that will continue, and I will have 
to rush over and vote again, and people are going over to make 
their votes. Because there are two of them, there is going to 
be a lot of back and forth.
    So just by way of explaining, it is nothing you are saying 
that is causing us to jump up and rush out.
    I went down to visit the Gulf and the Coast Guard folks who 
took us around talked a lot about how the use of Corexit as a 
dispersant, they used the word approved over and over, it was 
sort of part of the mantra, it is an approved dispersant.
    And I have a question about the way that the dispersants 
get deployed and how that approval process works. Because it 
doesn't seem to me, at least I can't see a point at which one 
agency actually takes a look at a dispersant and gives it its 
blessing and says, OK, this is actually approved. There is kind 
of approval creep, and eventually people say it is approved. 
But I don't know at what point anything actually gets done to 
make it approved.
    Here is what I understand the process is, and correct me if 
I am wrong. Under the National Contingency Plan, there is a 
product schedule of dispersants that can be used. EPA maintains 
that product schedule, correct? In order to get a dispersant 
onto that product schedule, the manufacturer nominates it onto 
the list, correct?
    Mr. Anastas. Correct.
    Senator Whitehouse. And the test that is done is a test of 
effectiveness, that it has to be more than 45 percent 
effective, however that is measured, at dispersing oil, is that 
correct?
    Mr. Anastas. Correct.
    Senator Whitehouse. But there is no testing of any kind 
that is done about its toxicity or its health effects at that 
time by EPA?
    Mr. Anastas. The data that is submitted to EPA includes 
acute aquatic toxicity data.
    Senator Whitehouse. But there is nothing done by EPA. It is 
part of the filing by the company to put some toxic quality 
information in the filing. But EPA doesn't do any evaluation or 
assessment. It could be as toxic as all get-out, and it still 
goes on the list as long as it meets the 45 percent 
effectiveness threshold.
    Mr. Anastas. It is part of the filing.
    Senator Whitehouse. It is a notice filing, basically at 
that point, not an approval at that point.
    Mr. Anastas. That is correct. It is part of the filing. I 
want to emphasize that while I am not an attorney, and I will 
be happy to get answers to any process questions to you, yes, 
it is part of the filing of the data that is submitted.
    Senator Whitehouse. And that is why the National 
Contingency Plan explicitly states that having a product on the 
product schedule does not constitute approval by the EPA.
    Mr. Anastas. It is a listing on the NCP list.
    Senator Whitehouse. Yes. Not an approval of any kind, 
because, except as to the question of effectiveness, the 45 
percent threshold.
    Mr. Anastas. That is the threshold, correct.
    Senator Whitehouse. Right. So then it is on the list, and 
now you have an incident, and now the Federal on-scene 
coordinator has the ability to take dispersants that are on the 
list and determine which is appropriate for us, and then apply 
those dispersants.
    Mr. Anastas. Correct.
    Senator Whitehouse. The Coast Guard folks were describing 
the list as being an approved list. And when I asked them, they 
said that they did not do any approval of the list. In fact, 
they took the entire list and said, everything on it is 
approved for use, as best I can tell. Is that correct?
    Mr. Westerholm. Senator, I might make one point of 
clarification here. There is an interim step that was left out. 
Any type of alternative technology, which would include 
dispersants or in situ burning, would have to go through the 
Regional Response Team.
    Senator Whitehouse. Go through the RRT process.
    Mr. Westerholm. And in that process, both the Coast Guard 
and the EPA are co-chairs. They will submit that to other 
Federal agencies. But each of the States are also in the 
Regional Response Team. And the Federal trustees, NOAA and the 
Department of Interior. At that point, the Regional Response 
Team can do a pre-approval for use of dispersants in a certain 
location. Usually it is offshore. And they make that for 
expediting decisions.
    Senator Whitehouse. And they did that in this case.
    Mr. Westerholm. They did that in this case.
    Senator Whitehouse. They did that for the entire product 
schedule.
    Mr. Westerholm. If they decide not to do that, then on a 
case by case basis the Federal on-scene coordinator, with the 
exception of certain emergencies which would include peril to 
human life, would have to go through that RRT process for that 
approval step. So in this case, it was approved, the use of 
dispersants. And that the FOSC had that pre-approval in place. 
And at that point the final decision would have to be made by 
the Coast Guard.
    Senator Whitehouse. Here is my question about this. When 
the RRT process pre-approved the entire product schedule of all 
dispersants, obviously that accelerated everything that the 
Federal on-scene coordinator could then do, because they would 
not have to go back through that secondary process that you 
described of case by case approval, correct?
    Mr. Westerholm. Right.
    Senator Whitehouse. But what a lay person would consider to 
be an approval, that this particular chemical is safe for use 
in these circumstances, never anywhere in this process that I 
can see actually gets done. There are three steps. The first 
step is the filing by the manufacturer that provides toxicity, 
some toxicity data. Then there is the selection by EPA which is 
based only on effectiveness. It has nothing to do with 
toxicity.
    Then you have the RRT pre-approval, so-called. But in that 
case, there was no examination done of which might be better or 
worse. They just took the entire list and said, you are all in. 
And so if you are looking at, for instance, Corexit 7526 or a 
specific product, it strikes me that to use the word approved 
about it may be technically true, because it technically was in 
the RRT pre-approval process. But what a regular human would 
think of as something having been approved never actually 
happened. Nobody ever actually looked at that and said, you 
know what, that is too toxic to use in these circumstances. Or 
is more or less toxic than the other.
    That is why after the fact you had to do the relative 
toxicity testing, after they had all been pre-approved, 
correct?
    Mr. Westerholm. And I think that is a great point. I think 
one of the issues that the RRT does look at is the collective 
of all those dispersants, saying if you picked any one of 
those, would it be safe to use in this particular environment. 
That is what they approved. They didn't pre-select any given 
dispersant. Once it made the list, they had to treat that list 
as a collective. And your point being, it may be appropriate to 
differentiate within that list.
    Senator Whitehouse. It may be appropriate to differentiate 
within that list, and it may be important to have somebody 
other than the manufacturer in a basically unreviewed 
disclosure of certain toxicity data come to a decision about 
the safety or not of the product.
    Let me put it this way. I can't think of another 
circumstance in which a regulatory agency approved something 
for use without actually coming to a formal decision that it is 
safe to be used and without any process other than that the 
manufacturer provides some information that is then posted. 
There didn't appear to be an evaluating moment.
    Mr. Anastas. Senator, you are making an extremely important 
point. You are certainly correct that the National Contingency 
Plan outlines the listing criteria, what needs to be submitted 
in order to be on the list.
    Senator Whitehouse. And particularly when you have what the 
Administrator referred to as a real emergency going on, the 
time at that point for the RRT process to go through a 
scientific evaluative process of determining what the toxicity 
consequences are off of the public data that has been filed is, 
you are under a lot of pressure at that point. It is a little 
hard to say, sorry, BP, sorry, Mr. President, we are not ready 
to authorize the use of dispersants here because we need to do 
a little bit more studying, because we haven't done that yet. 
You kind of have to say, well, here is what we have; take your 
best shot.
    And it sounds like that is more or less what happened. Is 
that correct?
    Mr. Anastas. And I think your point speaks directly to the 
fact that we want to have more science, more data, more testing 
up front. So when we are making decisions in an emergency 
situation you have that data, you have that perspective at your 
fingertips.
    Senator Whitehouse. How are you going to build that in? 
What is going to happen to this process so that an evaluation 
moment by somebody in Government takes place before a chemical 
gets dispersed into the environment with the nominal word 
approved attached to it, which I think led a lot of people to 
believe this stuff is safer than it actually is?
    Mr. Anastas. Administrator Jackson has said publicly that 
we need to go back to look at how the NCP is currently 
structured, to look at how we get more science, how we get more 
data, how we get more information into this process, so that it 
is far more transparent, far more informative. I think we are 
looking forward to bringing those proposals and recommendations 
forward.
    Senator Whitehouse. So reforming that administrative 
process is something that is underway within EPA?
    Mr. Anastas. That is correct.
    Senator Whitehouse. OK. That is very good to hear. I 
appreciate that.
    The other issue that comes up that I think is sort of an 
obvious one, but also a related one, is that when you have a 
toxin in the environment there is the immediate or acute effect 
that it could have, and you are able to test for that because 
it is immediate and acute, and you have done so. But an equally 
common and dangerous way for a toxin to get vectored into 
humans is through bioaccumulation. And why don't you just 
briefly describe what bioaccumulation is, and then I will go on 
with my question.
    Mr. Anastas. Certainly. Based on the properties that a 
chemical has, such as how soluble it is in water or how soluble 
it is in fat or tissues, a chemical has the potential to build 
up in the body, whether it is of wildlife or fish. A chemical 
that does that would be considered bioaccumulative.
    Senator Whitehouse. And bioaccumulation can be a very 
powerful and concentrating force if the ultimate animal to 
which the human is exposed is at the top of the food chain, and 
it is eating animals that are in turn eating animals that are 
in turn eating animals that are in turn eating animals that are 
becoming exposed to the chemical and taking up the chemical. 
And now you have very, very high levels of concentration at the 
apex, correct?
    Mr. Anastas. Substances that are bioaccumulative can, as 
you describe, go up the food chain. That is a process known as 
biomagnification. If a substance were bioaccumulative it could 
be magnified so that you would have higher concentrations at 
the top of the food chain.
    Senator Whitehouse. Magnified by what order of magnitude?
    Mr. Anastas. Several orders of magnitude.
    Senator Whitehouse. In each layer?
    Mr. Anastas. Throughout the food chain.
    Senator Whitehouse. Throughout the food chain. So it could 
be a thousand or ten thousand times more concentrated at the 
top of the food chain than it is in a creature at the bottom of 
the food chain?
    Mr. Anastas. That is the biomagnifications process. Now, I 
do think we need to speak specifically about whether or not 
that is happening with the dispersants.
    Senator Whitehouse. Let's do that.
    Mr. Anastas. OK. Because one of the things that we are very 
concerned about is bioaccumulation and biomagnification, as I 
am sure NOAA is as well. We first, of course, did the modeling 
data, all of our computer modeling results, and showed that 
these substances, all of the active ingredients of the 
dispersants, were not bioaccumulative. We also then sought to 
verify that with empirical data and monitoring data.
    So what we are seeing is in our near shore, far away from 
the shore, deep sea that NOAA can speak to, we are seeing none 
of the components of the active ingredients of the dispersants 
persisting or bioaccumulating, certainly not biomagnifying. So 
we are following the data, and right now the data is telling us 
that we are not seeing that happen with the dispersants.
    Senator Whitehouse. Would you be expecting it to happen 
this soon after the exposure?
    Mr. Anastas. Yes. Looking at the chemical structures of all 
the constituents of the dispersants, it is not surprising to me 
that these are not bioaccumulating.
    Senator Whitehouse. If they are not chemicals that tend to 
bioaccumulated by their nature. And so it is consistent with 
what you are seeing in the field, that there is not 
bioaccumulation happening in any great degree?
    Mr. Anastas. Right. The best scientific knowledge, 
intuition, if you will, would suggest that they would not. The 
modeling data and the monitoring data support that conclusion.
    Let me, if I may, Senator, just add.
    Senator Whitehouse. Please. At this point it is just the 
two of us, so I can go well beyond my time limit, and I am 
happy to have this conversation. When somebody else appears, I 
will yield.
    [Laughter.]
    Mr. Anastas. I am purposely focusing on, as I often say, 
the data, the data, the data. Because I think that it is very 
important to focus on what it is that we know, what the data is 
telling us and how we get informed by the data. I am not 
suggesting that we have perfect knowledge, I am not suggesting 
that we don't need more information and more monitoring. I am 
actually saying straight out that it is important to keep on 
asking these hard questions.
    Senator Whitehouse. Let me ask a different question which 
relates to the combined effect of dispersants and oil. As I 
understand it you have done some studies of the dispersants by 
themselves and showed that in some circumstances they are 
disruptive of endocrine in some species, if you will, some 
cells. But that when you try to test or if you tried to test 
the dispersant oil combination and do the same endocrine 
disruption test, the damage of the combined oil dispersant mix 
is so great on the sample that you can't pick out of the damage 
any endocrine disruption because the cell damage is so acute 
and so quick that there is nothing left to test for endocrine 
disruption.
    That strikes me as a potential signal, anyway, that 
whatever we may know about the effects of the dispersants on 
their own that there may be different health effects once the 
dispersants bond with the oil, which I understand it is their 
nature to do; that is why they work. They bond with the oil and 
form a sort of a connection between the oil and the water. So 
that a creature that is taking up the dispersant is also very 
likely to be taking up, to some degree, oil as well. And in 
combination the two are far more dangerous than the dispersant 
alone. Is that all correct?
    Mr. Anastas. Let me clarify, Senator. In the tests that we 
ran on the dispersants alone there was a range of tests which 
included a screening for endocrine disruption. Across the 
various tests for endocrine disruption we saw in only two of 
the dispersants a very weak signal, in one of the many tests 
that we ran on endocrine disruption. And it was not found to be 
scientifically significant for endocrine disruption.
    So I think it is important to say even in the dispersants 
alone, what we found was not scientifically significant for 
endocrine disruption.
    Senator Whitehouse. You found indication of endocrine 
disruption, but not scientifically significant endocrine 
disruption, or not a scientifically significant signal of 
endocrine disruption?
    Mr. Anastas. Not a scientifically significant signal of 
endocrine disruption. When we tried to use that same screening 
protocol for endocrine disruption on the oil itself and of 
course on the oil and dispersant, the structure of the tests 
themselves didn't allow for that. The way that these tests were 
set up would not allow for any significant results on endocrine 
disruption.
    Senator Whitehouse. And the reason we were told for that is 
because the damage to the cells is so immediate and so acute 
that you can't pick up endocrine disruption. They are more or 
less destroyed, and there is nothing to test.
    Mr. Anastas. The way that you need to expose these cells is 
in a way and at a concentration that would not allow for the 
test to be successfully conducted.
    Senator Whitehouse. To go back to bioaccumulation, once you 
have combined the dispersants and the oil, and now it is being 
taken up by the bottom level food chain species together, are 
you equally confident that the bioaccumulation problem is as 
minimal as it is for dispersants alone?
    Mr. Anastas. Well, I should certainly let my colleague from 
NOAA speak to that as well. What we are seeing is that the 
dispersed oil appears to be--to the degree it resides at all, 
it is residing as neutrally buoyant. So not at the bottom of 
the ocean. Our models are not currently able to model 
bioaccumulation of the oil plus dispersant. It is the 
monitoring data, the actual data that we are seeing, that is 
showing that it is not persisting in bioaccumulating.
    So the oil plus dispersant, we are not seeing, we are not 
detecting that in our monitoring.
    Senator Whitehouse. And I guess that goes back to the 
question I had earlier, would you expect to be seeing it at 
this point, or is the time delay for bioaccumulation such that 
you would really only see the more pronounced effects months, 
years, even decades later as the original cohort of bottom of 
the food chain species got gradually eaten and began to 
concentrate, and then the things that ate them got eaten, and 
it concentrated another level up and so forth? That seems to 
have a time component to it, unless things are being eaten a 
lot faster than I think out there.
    Mr. Anastas. So the persistence of the chemicals, the oil 
and the dispersant, is what is being monitored. I should let my 
colleague from NOAA speak to what is being seen or not being 
seen.
    Senator Whitehouse. Mr. Westerholm, you have been handed 
the ball.
    Mr. Westerholm. And I will take it. I would go back to what 
I said earlier; it would be remiss if we said that we knew 
everything about this situation and would be able to address 
your question adequately for every species. Certainly for some 
of the higher order species we are not seeing the 
bioaccumulation in the tissues, and we might find some in the 
bile. Most of it is excreted. This would include the oil and 
the----
    Senator Whitehouse. But would you expect to yet? I mean, is 
this even the feeding season for some of the species?
    Mr. Westerholm. You would expect to see it residing in--if 
it was going to bioaccumulated, you would be able to see that 
at a level, and certainly in past studies.
    Senator Whitehouse. What are you doing to test for that, 
just so I understand?
    Mr. Westerholm. Certainly on the seafood safety side we are 
looking at the tissues and others. But we are also looking from 
our damage assessment side as to the impact that this may have 
on some of those species.
    But I will take a step back and say, other species, some of 
the one we haven't tested, some of the deeper sea species and 
then also whether the dispersant would get to shore with 
oysters or some other creature, we may see some, we may be able 
to see some accumulation. But not necessarily biomagnifications 
in the higher order species.
    Senator Whitehouse. And you are comfortable that that is a 
viable indicator?
    Mr. Westerholm. I think that goes back to your statement 
earlier of how products are listed on the National Contingency 
Plan and whether this should be one of the criteria for 
approval process in the future of not having it 
bioaccumulative. Certainly we have seen in other regulator 
practices, and EPA can speak to this, is that certain chemicals 
that would bioaccumulated have not been allowed to be used in 
society. I think the same thing, we should have a series of 
more constructive tests to be able to more definitively prove 
that, and then use that as part of that follow-on approval 
process.
    Senator Whitehouse. To go back to what we do know about the 
dispersant that Chairman Boxer referred to, which has these 
characteristics of hazard to humans of liver damage, internal 
bleeding, and all those sorts of things, how does that 
transpire? What is the mechanism by which damage by Corexit 
gets done by humans sufficient to put it onto the hazard notice 
but isn't dangerous in any of the ways that you are describing? 
I am a little bit confused as to how it can be dangerous to 
humans sufficient to trigger notice but not dangerous with 
exposure.
    Mr. Westerholm. There are a couple of ways that could 
happen, and depending on the chemical it certainly could be an 
inhalation hazard to humans. It could be a skin contact to 
humans.
    Senator Whitehouse. So direct exposure?
    Mr. Westerholm. At a level that certain safety protocols 
would be enacted to make sure that you were wearing protective 
clothing or in a position not to be exposed in an aerial 
dispersant mode. So with that in mind--that acute toxicity and 
some of the impacts of that would be by direct exposure to 
humans in that regard and not necessarily passed through 
ingestion through the food chain.
    So I am sure on the MSDSs, the safety data sheets that she 
was looking at, as the hazards of those chemicals, that was for 
exposure to humans of that particular product in whatever 
concentration would show that impact.
    Senator Whitehouse. And the reason that that acute toxicity 
is not showing up in your field studies is because the 
concentration that you are testing at is below the level that 
would cause it, or is it because the creatures you are testing 
are fundamentally or intrinsically more resilient than humans 
and don't suffer the same injury when exposed to the chemical?
    Mr. Anastas. I would suggest that, for example, of the 
component that you are talking about in the Corexit, in 
determining a toxic effect, it is looking at all the possible 
ways that this could cause acute toxicity. So if something were 
ingested, if something were for instance consumed in high 
concentrations, then these types of effects may occur.
    When we are talking about releasing these substances into 
the Gulf, we do have to keep in mind that in 1 square mile of 
the Gulf at depth, we are talking about a trillion gallons of 
water. So those are very low concentrations.
    Now, the concentrations that the test species are exposed 
to are increasing concentrations until you do see the toxic 
effects. So they aren't being exposed to high concentrations. 
And the species are at juvenile life stage. So they are 
supposed to be at a life stage where they are more sensitive to 
pollutants.
    Senator Whitehouse. The second vote now has 7 minutes 
remaining. And with no one else here, I am starting to feel the 
pressure of that vote. So what I will do is--ah, here is 
Senator Carper. Perfect timing.
    [Laughter.]
    Senator Whitehouse. I will go vote and come right back. And 
if you would chair the hearing for the two witnesses here. And 
then I think we can move on to the next panel if nobody else 
has come to ask questions.
    Senator Carper [presiding]. I ask unanimous consent to 
bring up for a vote our multi-pollutant legislation, our 3-P 
bill that has been awaiting action.
    [Laughter.]
    Senator Carper. We will get this moved, and then we will 
break for lunch.
    [Laughter.]
    Senator Carper. Again gentlemen, welcome. Good to see you. 
How is the hearing going for you so far?
    [Laughter.]
    Senator Carper. First of all, thanks again for joining us, 
for your testimony. I want to ask--there is a woman behind us 
who is Committee staff who is a marine biologist. I was asking 
her to give me just a little bit of marine biology 101 with 
respect to these microbes out in the ocean that enjoy having 
lunch on oil spills. Just kind of talk about that, really in a 
basic, fundamental way.
    How does it work? We have the oil coming out of the ocean 
floor and have these chemical dispersants that we apply to the 
oil. Explain to us what happens, without getting into a lot of 
detail chemically, but what happens? How do these microbes do 
their work? How long do they live after they consume the oil?
    Just give us a little bit of a rundown on that. I just want 
to understand that better.
    Mr. Westerholm. I will start with that one. Again, when you 
are looking at the microbes, if you think of it sort of at that 
bacterial level, and if you think of the oil globule as a 
certain circumference, they would be surrounding that oil and 
they would eat their way in, they would multiply, much like 
bacteria do, to continue to feed off of that.
    Now, maybe I should take a step back and say there is a lot 
of natural oil seeps in that area. Petroleum hydrocarbons have 
been there for some period of time. And it tends to have--these 
particular microbes tend to flourish naturally in that Gulf of 
Mexico area anyway. So they are present, and maybe that is why 
we are potentially seeing what the initial indication is, that 
there is an acceleration of biodegradation, maybe even more 
than was expected.
    The fact that you put dispersants on oil in theory, in 
models, will break them into much smaller diameter globules, 
which allows a greater surface area for a larger number of 
microbes. So if you think of one big ball, you can get so many 
around. But if you split that into 100, you can get more 
microbes, and that process will go faster.
    So to answer your question about biodegradation, it really 
then depends upon how large a piece of oil you started with 
before that is dissolved to the subset of where there is no 
more biodegradation that would occur. At that point, with 
nothing else to feed on, if the microbes don't find anything 
else to feed on they themselves die, or they would have to find 
something else. There is a life cycle that they have, too, and 
a multiplication that they have around the oil.
    But we know that the subsurface injection of dispersants 
has put--as well as natural dispersant, even if there was no 
dispersants applied, natural dispersion probably occurred 
coming up through the water column with anywhere between 10 to 
20 percent of the oil coming off the wellhead release in that 
mile rise. Again, it also depends on the residency time and how 
much that oil weathers through the water column and on the 
surface.
    So unweathered oil provides a much better surface and will 
biodegrade faster--the microbes can eat it--than weathered oil, 
which gets to more like the tar balls and the asphalting 
process. So I guess I am evading the total question of how long 
it takes, but it really depends on the size.
    Senator Carper. Thank you for the explanation.
    Did you want to add anything, Mr. Anastas?
    Mr. Anastas. Yes, thank you, Senator. Because I think it is 
important to recognize that we as humans might think we are 
very clever. But we are actually stealing an idea that nature 
has been doing for billions of years. Dispersion and natural 
dispersants are something that are in the Gulf. What we are 
doing is basically mimicking nature, or using biomimicry in 
order to try and accomplish this, try to help out, try and make 
the process happen faster than it otherwise would have without 
the use of added dispersants.
    Senator Carper. So oil is dispersed in larger pieces of the 
oil are dispersed, being much smaller, the microbes have an 
easier opportunity to glom on and go to lunch on the oil.
    Mr. Anastas. That is right.
    Senator Carper. And as the microbes consume what is there 
in the water, do they have a short life span? Do they live for 
days, weeks, months?
    Mr. Anastas. I don't know the specific life span of 
particular microbes. But what we are talking about is, yes, 
they feed on these, and ideally, when they eat them and 
metabolize them they are producing carbon dioxide and water. 
That is the natural breakdown product of the oil when it is 
consumed and digested and metabolized.
    Senator Carper. All right. And when the microbes die, what 
happens? Do they go to the bottom; do they gather in the bottom 
of the ocean? What happens? The microbes die after eating all 
this oil. Who eats the microbes?
    Mr. Westerholm. I would add what Dr. Anastas just said, 
they break down the oil into component parts of carbon dioxide 
and others. So then you are left with organic material both 
with the microbe itself and what it excretes. So much like 
organic material falling to the bottom of the ocean, or 
suspended, depending on the particle size, that is what you are 
left with.
    Senator Carper. As it falls to the bottom of the ocean and 
gathers there, what kind of threat does it pose to the marine 
environment?
    Mr. Anastas. If the microbes have consumed and metabolized 
the oil, there should be in that scenario no additional risk to 
the marine environment.
    Senator Carper. So when people ask me saying, what happened 
to all this oil, this huge amount of oil that came out of the 
bottom of the Gulf, and now it seems to be going away, some of 
it has evaporated?
    Mr. Anastas. Correct.
    Senator Carper. Roughly what percent would you say has 
evaporated?
    Mr. Westerholm. Twenty-four percent, 25 percent.
    Senator Carper. And a good deal of it is being consumed by 
these microbes, and that--what percent would you say has been 
consumed by the microbes? As much as is being evaporated? Or 
more?
    Mr. Westerholm. Well, I think you have to put that in two 
categories, that that has already been consumed and that that 
will be consumed. That will be the oil that doesn't rise to the 
surface and some that actually does and that gets consumed as 
it goes into shoreline. But it could be as much as 50 percent 
of that which is dispersed and what was residual in the water 
column or on shorelines that are starting to be biodegraded 
over time.
    Senator Carper. So if that is correct that leaves us with 
the last 25 percent or so to worry about. Is that roughly 
right?
    Mr. Westerholm. And that last 25 percent is what has been 
collected through the riser pipe, what has been skimmed off or 
what has burned. So ultimately some of the products in the 
very--even the tar balls over time, many of those will be the 
residual ones that could last for much longer. But most of what 
is in the water column and what is going to shore will start to 
biodegrade.
    Senator Carper. Good. I am going to ask you a couple more 
questions before my colleagues come back and try to take this 
mic away from me.
    [Laughter.]
    Senator Carper. I understand the EPA has been researching 
the effects of dispersants in a subsurface environment. What do 
the studies tell us, and more importantly, what do they not 
tell us in terms of the long-term consequences of using 
dispersants?
    Mr. Anastas. What we are looking to do going forward is 
have a better, deeper understanding of the long-term transport, 
fate, and exposure of these dispersants. So that means while we 
have some knowledge of how these dispersants travel in the 
water column and the various currents. Specifically how long it 
will take, how they will be metabolized, what are the breakdown 
products, what exposures they will give to fish and wildlife as 
well as humans. Those are some of the long-term questions that 
we want to have answered as we are going forward.
    Senator Carper. Second question, what steps can the Federal 
Government take to ensure that the next generation of 
dispersants in the Gulf are greener and maybe even more 
environmentally friendly than the ones we are already using?
    Mr. Anastas. Senator Carper, this is a key question. It is 
certainly a key question for dispersants. It is a key question 
for the chemicals that we use in our daily life generally. What 
we have currently is a situation where we often are focused on 
characterizing the chemicals that we use in ways that we try to 
understand whether they are going to cause a toxic effect to 
humans or the environment, if they are going to bioaccumulated 
and persist.
    But what we have not invested in as a scientific community 
are the insights that are needed to design the next generation 
of substances. This area of so-called green chemistry is a 
scientific approach to understanding not only the basis of the 
hazard that these chemicals cause, but more importantly how you 
design them so that they are not going to cause problems in the 
future.
    So applying the principles of green chemistry to 
dispersants is going to be essential. It is going to be 
essential in order to do this, to have scientists trained and 
understanding both the nature of the problems that these 
chemicals pose, but also the solution.
    I have often been quoted as saying that the only reason to 
deeply understand a problem is to empower its solution. And 
what we are hoping to get with a deeper understanding of the 
concerns that we have for dispersants--or really all 
chemicals--are the insights to invest intellectually and with 
resources to pursue green chemistry so that the next generation 
of dispersants are more environmentally benign.
    Senator Carper. As this tragedy has unfolded, and we have 
dealt with it, and we are hearing encouraging reports in the 
news, with the ability to plug the leak and maybe to do so on a 
permanent basis, we now turn to cleaning up this mess and 
trying to make sure that the people who live in that part of 
our country and that part of our world, help them get back to 
their lives, what surprises--if you look back to some of the 
things that happened, what are some of the surprises that you 
have seen, particularly with the use of dispersants, but some 
of the surprises that you have seen with respect to the clean 
up portion here?
    Mr. Westerholm. I can certainly start. One of the things 
that we have done over the years, obviously, is plan and 
prepare for what we would consider worst case scenarios. 
Obviously, a well blowout of this magnitude over this length of 
time was always possible, but never really figured that we 
would have one for this duration and have those issues. So we 
were really combating a major oil spill every day for as many 
days as that happened.
    I think that was the first surprise. The second piece of 
that obviously was it was 50 miles offshore, depending on where 
you went off from the shoreline. That created some logistical 
challenges for just the ability to respond and the equipment 
that went out there.
    I think that the idea of using subsea dispersants as 
opposed to surface, the first application was obviously 
surface, but it is not an unknown idea. There were some papers 
that were talked about earlier. But really it was not--it was 
technically challenging and unfeasible. But they came up with 
an innovative approach to do that for this time. So it was, I 
don't want to say, maybe surprise is the wrong word, but it 
certainly had to put a lot of people in the position of making 
quick decisions and alert decisions.
    Then in addition, from an environmental point of view, both 
EPA and ourselves had to come up with a monitoring strategy 
that had never been in place. For years, the SMART protocol I 
mentioned earlier was used for dispersants, which basically 
looked at how effective they were in the water column and where 
we expected them to go, which was surface dispersants pushing 
them down to maybe as much as 30 feet, maybe more like 10 feet 
into the water column. Here we were dealing with something a 
mile below the surface.
    So we really came up with a toxicity test with rotifers and 
a dissolved oxygen test to show not only efficiency but also 
effectiveness.
    Senator Carper. Thank you for that response. Thank you for 
all your responses and your testimony here.
    Mr. Chairman, I have only had 13 minutes, and that is not 
enough. But I will grudgingly yield back my time.
    Senator Whitehouse [presiding]. Well, these two witnesses 
have been very helpful and very informative and also been 
subjected to longer periods of questioning than most, because 
we have had these circumstances in which so many colleagues are 
over at the vote. But I think at this stage it would be 
appropriate to thank them both for their testimony, excuse this 
panel, and call up the second panel of witnesses. We will take 
a 2-minute recess for the chair change.
    Thank you both very much.
    [Recess.]
    Senator Whitehouse. All right, the hearing will come back 
to order.
    I thank the witnesses for being here. Our first witness is 
Dr. Ronald J. Kendall. He is the Director of the Institute of 
Environmental and Human Health and Professor and Chairman of 
the Department of Environmental Toxicology at Texas Tech 
University. And if you think it is easy to say Toxicology at 
Texas Tech fast, it isn't.
    His research is focused primarily on ecotoxicology, 
wildlife toxicology, and risk assessment. He is most welcome as 
a witness here.
    Thank you for your testimony, Dr. Kendall. Please proceed.

STATEMENT OF RONALD J. KENDALL, PH.D., DIRECTOR, THE INSTITUTE 
OF ENVIRONMENTAL AND HUMAN HEALTH, AND PROFESSOR AND CHAIRMAN, 
 DEPARTMENT OF ENVIRONMENTAL TOXICOLOGY, TEXAS TECH UNIVERSITY

    Mr. Kendall. Thank you, Chairman Whitehouse. It is a 
pleasure to be here today.
    We have already heard earlier today of estimates of more 
than 200 million gallons of crude oil being released into the 
Gulf of Mexico as a result of the Deepwater Horizon incident. 
In addition, we have heard an estimated 1.8 million gallons of 
dispersant were used in the Gulf, and particularly in the deep 
water. And this is unprecedented.
    Corexit 9500 has been the predominant dispersant used. 
Though the application of the dispersant may very well have 
protected shorelines and parts of the Gulf Coast ecosystem, 
there is still an immense area in the Gulf that is under stress 
and potentially impacted from the heavy use of these 
dispersants. In essence, my colleagues and I who have been 
studying this situation believe that a massive ecotoxicological 
experiment is underway.
    We have very limited information on the environmental fate 
and transport of the mixture of dispersant and oil, 
particularly in the deep ocean. We have very little information 
on the ecological effects of this particular oil and dispersant 
mixture in terms of acute, chronic, and indirect effects to 
marine and coastal organisms.
    Given the volume of oil and dispersant that has been 
released into the Gulf, we have a very poor understanding of 
the ultimate ecosystem effects. So when we bring this all 
together, we have a very challenging situation, of course, in 
dealing with a massive oil spill. Yet at the same time did we 
really understand the environmental toxicology of such a 
massive use in the deep water of a substance such as Corexit 
9500? And I say we did not.
    As we looked at the environmental chemistry of the deep 
water use of the dispersant-oil mixtures, crude oil is a 
mixture of thousands of chemical compounds, including aromatic 
hydrocarbons and polycyclic aromatic hydrocarbons. We believe--
and it appears to be upheld with more recent research--that the 
use of dispersants creates the release of these toxins into the 
water column, and in fact the use of Corexit 9500 does put more 
hydrocarbons into the water column. That is essentially what we 
are seeing.
    Crude oil can have physical, toxic, and indirect effects. 
We have seen much evidence of oil on birds and other wildlife, 
and of course that is terrible. But in addition the use of 
dispersants basically disperses the oil into the water column, 
and the toxic components of oil are available to exposed 
organisms. These dispersants, as we have heard in earlier 
testimony, are not totally non-toxic. They have toxic 
qualities. But it is the dispersant-oil mixture and ultimate 
release of toxins into the water column that we believe could 
be of a concern in the ecological perspective.
    Let's just consider some species. We have talked a lot of 
theory already today. But let's consider the Gulf of Mexico and 
the many endangered species that live there. Take the Kemp's 
ridley sea turtle, one of the most endangered species of sea 
turtles in the world. Many of them nest on the coast of Texas. 
And the hatchlings are returning to the Gulf now. They are only 
about 1+ inches long when they return, by the thousands, to the 
Gulf. They go to the open Gulf and exist for years, moving in 
the currents, perhaps co-locating with sargassum, a seaweed. 
They feed opportunistically.
    And it may take many years before they may return to Texas 
to lay eggs. Therefore, if we affect their food chain or affect 
those hatchlings we may not see this for years to come. And we 
do know they can be susceptible to oil.
    Take the sperm whale. They are endangered. The females come 
to the Gulf to calve in the summer. They feed opportunistically 
in the deep water on squid, cephalopods. We have no idea what 
the deep water injection of dispersants could have done to 
release oil into the water column and impact such food supplies 
for endangered species. So these are questions that we may not 
have the answers revealed to us for years to come.
    The bluefin tuna--perhaps moving to threatened status 
itself--they come to the Gulf and spawn. The eggs float in the 
Gulf; they hatch. The larva then feed opportunistically on 
zooplankton. They co-locate with sargassum as well. If we 
impact the sargassum or impact the zooplankton we could take 
out portions of age classes of the bluefin tuna. And again, we 
may not see this for years to come.
    So again, we are conducting a massive ecotoxicological 
experiment, and we need research and scientific data that can 
be peer reviewed and brought to the table to make good 
decisions for the future.
    I might add that dispersants are a tool. But they need to 
be fully researched, and we need to have the environmental 
toxicology data on them to truly apply them in the best 
environmental stewardship possible.
    Thank you.
    [The prepared statement of Mr. Kendall follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       
    Senator Whitehouse. Thank you, Dr. Kendall. That was very 
helpful.
    Our next witness is Dr. David C. Smith of the Graduate 
School of Oceanography from my home State's University of Rhode 
Island. It is one of the jewels in the crown of our university 
system. We are delighted that David could be here.
    Welcome, Dr. Smith.

  STATEMENT OF DAVID C. SMITH, PH.D., PROFESSOR AND ASSOCIATE 
  DEAN, GRADUATE SCHOOL OF OCEANOGRAPHY, UNIVERSITY OF RHODE 
                             ISLAND

    Mr. Smith. Thank you, Senator. Good morning.
    I am David Smith, Professor and Associate Dean at the 
Graduate School of Oceanography. I appreciate the opportunity 
to testify on this very important subject.
    The environmental trade-offs associated with the use of 
dispersants in response to oil spills are difficult to assess, 
and therefore their use remains controversial. Dispersants 
reduce the chance oil will wash ashore and damage coastal 
habitats by moving the oil from the surface into the interior 
of the ocean. Dispersants do not remove the oil from the ocean; 
therefore, it is important that we not adopt an out of sight, 
out of mind attitude.
    Moving oil below the sea surface presents significant 
challenges to the organisms residing in this habitat. Impacts 
will be less noticeable but could be as devastating as oil 
washing ashore.
    Ultimately, microorganisms degrade most of the oil spilled 
in the ocean. Dispersants are presumed to speed up this process 
by making the oil more accessible. The rate of degradation is a 
function of many factors, including temperature, nutrient 
concentrations, and the abundance of the microorganisms that 
are capable of consuming the oil.
    Now, our entire knowledge of the effects of oil dispersants 
is from their application at the sea surface. The Deepwater 
Horizon spill presents a much different scenario, where the 
dispersants were introduced at the wellhead, approximately 
1,500 meters below the surface.
    As we continue to [unclear] oil from the deep ocean, it is 
reasonable to assume that we will face similar scenarios in the 
future. Therefore there is an urgent need to understand the 
ultimate fate of the oil dispersed at depth before we continue 
to apply dispersants in this manner.
    While we have some understanding of how microorganisms 
respond to dispersants at the surface we know nothing of how 
they do so in the deep sea. There are far fewer microorganisms 
in the deep sea compared to the surface. This, combined with 
the lower water temperatures, will result in a slower rate of 
degradation, leading to a much more persistent plume of oil in 
the subsurface.
    In addition, by keeping the oil away from the surface the 
evaporation of the volatile fraction of the oil is eliminated, 
and the probability of entraining oil into the sediments is 
increased. If the oil is concentrated into the sediments a lack 
of oxygen will dramatically decrease the degradation rate, 
leading to long-term contamination of the sea floor.
    It will be difficult to assess the changes that occur as a 
result of the oil and dispersants in the deep sea community 
given our limited knowledge of the pre-spill community 
structure, particularly with regard to microorganisms. Working 
in the deep sea presents many challenges, but it is essential 
to address these if we are to understand the impact of the 
large scale experiment that has just been conducted in the Gulf 
of Mexico. And we need to do so quickly.
    In light of our lack of knowledge of the environmental 
effects of dispersants in the ocean, the initiation of a 
National Research Plan for oil spill response is warranted. 
This research plan should call for and support peer-reviewed 
research in all environmental aspects of oil spill response, 
including the dispersal of oil in the deep sea.
    It is critical that the initiative address the following 
issues: The development of a set of best practices for 
experiments addressing the impact of oil and dispersants in the 
ocean. This will allow for the direct comparisons between types 
of dispersants, types of oils, and habitats as well as between 
laboratories conducting the research.
    The establishment of a baseline data set on environmental 
conditions in the water column and sea floor of oil-producing 
areas of the ocean, including biodiversity, biological 
production, water current profiles, and sediment 
characterization.
    The development of long-term ecosystem-level studies of the 
environmental effects of the use of dispersants, including 
field, mesocosm, and laboratory scale studies.
    The engagement of the Nation's academic and Government 
research infrastructure to assist in this endeavor, including 
research vessels, undersea robotics, moored instruments, 
vessels of opportunity, experimental mesocosm facilities, and 
computer modeling facilities.
    The development of an online, open access data base to 
serve as a repository for the scientific community.
    And the establishment of a significant outreach effort to 
disseminate the results of this research to stakeholders 
outside the scientific community.
    These efforts should result in the ability to better 
predict the environmental consequences of dispersants under 
different scenarios for use in formulating specific emergency 
response plans.
    Thank you.
    [The prepared statement of Mr. Smith follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
    Senator Whitehouse. Thank you, Dr. Smith.
    Our next witness is Edward B. Overton. Dr. Overton is a 
Professor Emeritus with the Department of Environmental 
Sciences in the Louisiana State University School of Coast and 
Environment, with over 34 years of experience studying the 
impacts of oil spills. We are delighted that he is here and 
look forward to his testimony.
    Dr. Overton.

  STATEMENT OF EDWARD B. OVERTON, PH.D., PROFESSOR EMERITUS, 
    LOUISIANA STATE UNIVERSITY DEPARTMENT OF ENVIRONMENTAL 
         SCIENCES, SCHOOL OF THE COAST AND ENVIRONMENT

    Mr. Overton. Senator, thank you very much. Not often does 
an academic scientist get to appear on the Late Show with David 
Letterman and testify before the U.S. Senate in the space of a 
few weeks. So this is indeed an honor for me, and quite an 
unusual experience, I might add.
    I find myself in an interesting position of agreeing with 
almost everything that has been said, both by the Senators in 
their opening comments and by my colleagues here so far. Oil, 
the lesson here is an ounce of prevention with an oil spill is 
worth a pound of cure, many pounds of cure. Clearly, what we 
can do to not have an oil spill, a deepwater oil spill, is 
worth an awful lot of attention.
    Having said that, we weren't presented with an ounce of 
prevention; we had to come up with a pound of cure. And when 
you are talking about an oil spill, there are a couple of facts 
that are important to understand what happens when this oil 
enters the environment. First of all, this was a unique spill 
because it was a deepwater spill. So oil entering the water, 
some of it stayed down in the deep oceans, and it is still 
there in the deep oceans. It has been dispersed; it is moving 
around by currents. Most oceanographers suggest that that oil 
down in the deep oceans will be degraded, but it won't come up 
onto the shelf an impact the coastal areas.
    Much of the oil did reach the surface. As it came up it was 
stripped of a lot of its organic chemicals as it worked its way 
up to the surface. We are seeing evidence of that now in some 
of the oily material. Oil that reached the surface, oil that 
enters the environment undergoes a series of weathering 
processes. So you are left with trying to clean up not just 
oil, but oil and all the weathered products.
    There are difficult decisions to be made, because as the 
oil changes, it changes its toxicity, its physical properties, 
its chemical properties. So you are trying to clean up an 
elusive target.
    But having said that, there are three tools in the tool box 
to get oil off the ocean surface. And those three tools are: 
you can use mechanical means, skimming, sucking, clean up like 
that. You can use chemical means, and the means that we were 
using in this spill, are dispersants. And you can use in situ 
burning.
    In a perfect world I am a big fan of skimming, because 
skimming allows you to retrieve the hydrocarbon material, and 
it can be recycled. So if you can skim it, you should. And it 
should always be your first preference. If the oil is thick 
enough to burn, it is thick enough to skim and recycle. So I 
think everybody is in favor of recycling.
    Unfortunately, because the oil came up to the surface and 
spread out, we weren't left with that option. And the option 
we're using were chemical dispersants. Dispersants are a soap 
for oil. It dissolves oil down into the water column. As has 
been said many times before, I am not going to repeat what has 
already been said, you are clearly, clearly trading off impacts 
in the deep ocean with impacts on shore.
    One point I have not heard being made is that that 
dispersant use should always be used in deep offshore water and 
not near the shoreline. There is just no opportunity for 
dilution of all hydrocarbons in near-shore environments. So oil 
should be dispersed offshore.
    With this particular dispersant--and I think most 
dispersants as we are finding out--the dispersed oil is not any 
more toxic than the oil itself. The oil is what is causing the 
problem, and of course you are dispersing it in deep water. It 
is causing damage, as has been adequately described. And we 
will not know that damage--I totally, totally agree that we 
need to use this to understand the impacts of oil spills and 
dispersants. We simply cannot put this much oil in the 
environment as a grand experiment. It is out there now; we need 
to take advantage of the research opportunity and the long-term 
research opportunity to understand the environmental 
implications both in the deep ocean and at the surface.
    Having said that, use of dispersants--we are not through 
with this event yet, this sorry affair. But looking back right 
now, Louisiana's 7,700 miles of contiguous coastline has been 
largely spared from heavy oiling. Seventy-seven hundred miles 
represents about 40 percent of the Nation's wetlands and is the 
base of the food chain for something on the order of 80 to 90 
percent of the marine harvest. This is an incredibly valuable 
shoreline that must be protected. The use of offshore 
dispersants appears to have spared a lot of this environment.
    Out of those 7,700 miles something on the order of 200 to 
300 miles have been hit and hit pretty hard. We originally saw 
the pictures of coastal oiling, but it certainly could have 
been much worse.
    So we are not out of the woods yet. We don't know how much 
more damage has been done. But we do know a few things, and one 
is that the damage so far is not as bad as it could have been.
    Now, we certainly need to monitor for the long-term damage. 
How long will it take species to come back? And by the way, 
during an oil spill, this acute event, the damage is done, it 
will take a little while for us to understand that, and a 
little while means years. But the damage has been done. We need 
to assess it; we need to spend the money.
    I have a lot more to say, but my red light is on, so I 
thank you very much for the opportunity.
    [The prepared statement of Mr. Overton follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Senator Whitehouse. Thank you, Dr. Overton. I look forward 
to giving you a chance to have more to say during the question 
and answer period.
    Our final witness is Jackie Savitz. She is the Senior 
Scientist with Oceana. Prior to that, she served as Executive 
Director of the Coast Alliance, as an environmental policy 
analyst with the Environmental Working Group, and as an 
environmental scientist with the Chesapeake Bay Foundation. We 
are delighted to have her here and welcome her testimony.
    Ms. Savitz.

                STATEMENT OF JACQUELINE SAVITZ, 
                SENIOR CAMPAIGN DIRECTOR, OCEANA

    Ms. Savitz. Thank you, Senator, and thank you so much for 
inviting me to be here today.
    As you know, Oceana is a global conservation organization, 
and we are dedicated to restoring and protecting the oceans. 
Since the Deepwater Horizon blowout our Nation has been shaken 
by an unprecedented oil spill that has directly caused 11 
deaths, put many people out of work, shut down fisheries and 
threatened businesses that depend on the oceans.
    Marine life affected by the spill include endangered, 
threatened, and commercially important species. Many questions 
have arisen, including whether or not dispersant chemicals 
should be deployed. The answer is not an easy one, as you have 
heard. Once the oil hits the water there simply are no good 
ways to stop it or to clean it up. There are pros and cons to 
dispersant use and their use is clearly a lose-lose proposition 
that requires a choice between a lesser of two evils.
    If we are continually asking the oceans to take one for the 
team, we ought to be making sure we don't repeat the same 
mistake. Since we can't prevent, contain, or clean up oil 
spills without major ecological impacts, we need to stop 
offshore drilling, promote alternative energy sources, and 
transition oil and gas workers to the clean energy sector. If 
drilling must continue there must be effective plans for 
prevention, response, and clean up. But currently those do not 
exist.
    Dispersants can be effective at dissolving oil and removing 
it from the surface, where it threatens diving birds, surfacing 
marine mammals, and sea turtles. They prevent some of the oil 
from reaching land where it would wash up on beaches and 
marshes and pose risks to public health.
    However, they also help to dissolve oil in the water 
column, where fish and other marine life are continually 
exposed. Oil dispersants and their mixture can kill marine 
life, they can affect reproduction, growth, disease resistance, 
digestion and a long list of other critical life activities. 
Their use also prevents skimming and collection of meaningful 
amounts of oil.
    The required lesser of two evils decision is made without 
the benefit of a crystal ball. The science does not fully 
address the impacts on key species like corals, or sensitive 
life stages, or ecosystems. Even if we had that information, 
there is no calculus that can compare the ecological benefits 
to the ecological costs and come out with a right answer. It is 
a trade-off. The decision to use dispersants may have saved 
some birds in marshes while increasing the impacts on fish and 
other marine life. How can we say which is more important?
    There have been many lose-lose decision. Do we use 
dispersants or not? Do we burn off the oil off the water 
surface or not? What about flaring off oil and gas with the 
inherent air pollution, or not flaring it? I could go on.
    If we are going to have to ask the oceans to take one or 
many for the team, we should in response take all necessary 
measures to make sure the situation is not repeated. That means 
making sure there are no more oil spills where dispersant 
chemicals are considered the best option.
    Since drilling has so clearly been shown to be unsafe, 
unpredictable, and damaging, the only way to effectively 
prevent this type of spill and its consequences is to stop 
offshore drilling. Oceana recommends a ban on new offshore 
drilling.
    Given what we know about the inadequacy of spill response, 
the side effects of dispersants, and the frequency of spills, 
it would be a tragic mistake not to use this opportunity to 
devise a plan to replace our oil demand and stop drilling 
offshore. There are clear options that could allow us to 
accelerate our shift to clean energy.
    We recommend that a blue ribbon panel of experts be 
appointed to engage the brightest minds to formulate a plan to 
fast track that shift to clean energy. This should include 
development of a clean energy manufacturing hub in the Gulf 
region to allow for a just transition of oil and gas workers to 
the clean energy jobs.
    Finally, while Oceana argues that the drilling should stop, 
at the very least no drilling permits should be approved 
without plans for spill prevention, response, and clean up that 
do not rely on lose-lose decisions and that do not make our 
oceans and all who depend on them the biggest losers.
    If there are no adequate technologies or no safe chemicals 
to respond to spills, then drilling simply should not be 
allowed.
    As far as dispersants, the only good answer is to avoid 
having to trade the health of fish for the health of marshes or 
the survival of corals for the survival of sea birds. If we 
fast track to clean energy we could build an energy to replace 
dirty and dangerous jobs with clean jobs, one that powers our 
daily lives without releasing carbon dioxide and contributing 
to climate change and one that stimulates our economy and 
provides us with exports.
    Countries like Germany and China are already making these 
investments. We can stick with oil and gas and import our 
energy technology from them, or we can use this opportunity to 
change course and become the exporters. We could be the Saudi 
Arabia of clean energy technology.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Savitz follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Senator Whitehouse. Thank you very much, Ms. Savitz.
    Thank you to all the witnesses for your testimony. There 
seems to be considerable agreement in certain areas, including 
even the same words being used by witnesses. The use of the 
dispersants being a grand experiment, with massive unknowns 
about its effect seems to be a common theme through all your 
testimony and suggests that there is both a need and a 
significant opportunity here for research. As long as we have 
done this, we might as well get out there and figure out 
exactly what the consequences are of it rather than simply let 
it happen without examining it.
    Let me ask Dr. Kendall and Dr. Smith what resources you see 
for conducting this research. Is BP setting up funds that will 
support this research? Is it being done at taxpayer expense 
through EPA? Is it up to the scientific community to go about 
its usual business and try to find funding and pursue these 
questions? What do you see as the funding sources for the 
research that you recommend?
    Mr. Kendall. Senator, I would like to compliment you 
earlier this morning, exploring what we do know toxicologically 
about these dispersants, what is required to be approved. And 
in fact I agree with you totally.
    I was thinking earlier that dispersants--we can be somewhat 
synonymous with pesticides, which are so heavily regulated. The 
pesticide industry has to provide considerable data to register 
a product and use it in the environment. They provide acute 
data and chronic data in environmental chemistry. And it goes 
through a scientific peer review process.
    In fact they have to rebut the presumption of risk that 
that product will cause and effect in the environment.
    Senator Whitehouse. As I understand it, the dispersants 
only had to provide acute data, correct?
    Mr. Kendall. Exactly. So I look at the dispersants, and 
right now, very limited information to a point where we can't 
even evaluate the potential environmental toxicology. A 
laboratory experiment on maybe a shrimp and a fish doesn't help 
us understand much about the environmental chemistry and 
effects on other parts of the ecosystem.
    In my opinion, and I support you totally as to your earlier 
questioning, I think we need to acquire more information and an 
appropriate regulatory process to find the best dispersants. 
And when we say they are approved, in fact we have 
environmental data and environmental toxicology data to say, 
this is in fact true. And we don't have to have a situation 
like we are dealing with now to have to backfill with data 
after we have used millions of gallons of it in the Gulf.
    Senator Whitehouse. Dr. Smith.
    Mr. Smith. Thank you. As far as the funding source, I think 
this should be a cost of business in extracting oil. I don't 
think it is a mystery that what type of oil, what type of crude 
oil is being extracted from there, and I find it very curious 
that we did not have these tests that were just done recently 
with this oil with the approved list of dispersants when we 
have known what type of oil that is. I think it is essential 
that the oil from the different areas be tested specifically 
for their consequences on organisms that are relevant to the 
area where it is being extracted, the type of oils being 
extracted and what are the proper dispersants.
    Just looking at this particular data set that was just 
released on the 31st, as far as a dispersant, it looks like one 
other was much better at dispersing the oil if you look at the 
amount of the hydrocarbons that were retained in the water. And 
yet its toxicity was about the same.
    So that should have been known beforehand. And maybe that 
decision could have been made to have that particular 
dispersant on hand.
    Also, I think the testing has to be done in relevant 
conditions. The oil exiting the wellhead is very hot. It is 
estimated to be about 100 degrees or so, going into cold water. 
We don't have data on that, how it affects it at that level. 
And EPA is asking to minimize the amount of dispersant used, 
but it is not really stated what the goal is. Is the goal to 
disperse as much oil as possible, or is it to minimize the 
ecological effect?
    So getting the right ratio of dispersant, the particular 
dispersant with the right type of oil that is being extracted, 
I think is critical. Like I say, I think that should be a cost 
of doing business.
    Senator Whitehouse. Let me ask generally, sort of a jump 
ball, you heard the testimony this morning, and you may very 
well be familiar with the testing that was done by the EPA that 
has been reported out fairly recently that compared the 
relative toxicity of the different dispersants and said that 
they were more or less of a par with each other, in some cases 
a little bit more for one species, a little bit less for 
another. But they were generally comparable.
    You all are scientists, you have dedicated your lives to 
this kind of study. How complete and effective is that 
particular study as a point from which you could draw 
conclusions about the many different questions that you have 
said have been left or are unanswered at this point? And what 
else would need to be done to get a more authoritative 
determination on the questions that you believe we need to 
study?
    Dr Smith first, then Dr. Overton.
    Mr. Smith. Thank you. One of the things that concerns me is 
that when these tests were done, they are short-term tests, 
acute toxicity, they don't address long-term effects and sub-
lethal effects. I also am concerned that--particularly I 
focused on the application of dispersants at depth. The 
organisms that are used were chosen for a good reason in that 
they are commonly used for this purpose, and that allows you to 
compare different experiments. But they have no relevance 
whatsoever in the deep sea.
    The fish that is used is a small estuarine fish. And the 
mysid at not at depth, either. So I would not extrapolate very 
far.
    Senator Whitehouse. Dr. Overton.
    Mr. Overton. I would agree. I think when you are doing 
toxic testing, you have to use a standard series of testing. 
You can't try one thing and then slip around it to get any 
comparative data. So you have to pick a species. You should 
pick more than one, many species, but clearly we didn't have 
deep ocean and probably can't have, because they don't live at 
the surface, deep ocean species. So it is a real problem.
    But having said that, the components in this dispersant 
biodegrade fairly rapidly. Now, that implies that the long-term 
impacts are minimal. Compounds that have heavy metals, 
compounds that have chlorocarbons that don't biodegrade, tend 
to bioaccumulated and have long-term impacts. Non-persistent 
compounds, petroleum, in fact, does degrade and degrades fairly 
rapidly.
    My problem with all this tox testing is that oil changes so 
much from its input into the environment through its journey 
into the environment. Which point do you take to look at the 
efficacy testing? And even the tox, most of the time you take 
the most toxic part of the oil, that is the early fresh oil, as 
opposed to the weathered oil. But in some cases, where you have 
a really heavy crude, not in this spill, but in other spills 
like Exxon Valdez, that oil, the residual components may have 
significant toxicity.
    So it is a complex question. But we have a great 
opportunity to study if there is going to be long-term impacts, 
these types of things, from this spill. Because we simply can't 
go out into our environment and release large quantities of 
oil.
    Now, let me get back to the funding question. Mineral 
Management Service has generated royalty income to the Federal 
Government of billions of dollars. Virtually all of that money 
has been spent on not understanding the environment. A little 
bit of it has. The old Mineral Management Service had an 
environmental studies program.
    But almost none of the money looked at deep ocean 
environments. Revenue stream is there to provide this funding. 
Now, it certainly should be part of the industry's--if you are 
going to take on a very difficult, risky procedure, you ought 
to know how to respond to it, and you ought to know what the 
impacts are.
    But the Government ought to have some oversight. And taking 
some of that royalty money, a significant amount of that 
royalty money, and understanding how both from an engineering 
perspective as well as an ecological perspective what to do 
about it. We didn't even have really good techniques to collect 
samples at depth. Most of the sampling technology was to 
collect plankton and animals like that, not oil. So when these 
samplers went down to the depth, they got coated with oil and 
we never knew whether they were really getting a true sample or 
whether it was some of the oil that they had passed through.
    It is incredibly complex. All of this stuff should have 
been developed. Also, BP has set aside something on the order 
of $500 million for understanding the long-term impacts. That 
is in addition to what NOAA's program is.
    Senator Whitehouse. And that gives me the opportunity to 
make a shameless plug for my National Endowment for the Oceans 
legislation, which would take some of these revenues and set 
them aside in a process that be both geographically based, so 
that local conditions could be addressed, and competitive, so 
that the more significant issues would be reviewed through a 
competitive grant process, could also be addressed. That is a 
bipartisan legislation with Senator Snowe. We are working very 
hard to try to get that incorporated into energy legislation as 
that moves forward.
    So I appreciate your thoughts, Dr. Overton. We are very 
consistent on that.
    Starting with Ms. Savitz, all of you are experienced 
scientists. You have heard the testimony, Dr. Overton, you have 
already said so yourself, that the bioaccumulation risk is low 
from, as I understand it, the dispersants, low from oil and low 
from the dispersant-oil combination. Is that something that 
everybody on the panel is comfortable with as an assessment?
    Ms. Savitz.
    Ms. Savitz. Yes, Senator. First of all, thank you very much 
for your legislation for the National Endowment for the Oceans. 
We support that and appreciate it.
    Just to get back to your last question quickly, in terms of 
whether the EPA studies are enough to draw conclusions, I 
certainly agree with Drs. Smith and Overton that they are not. 
Part of the reason for that is they are so short-term. It is a 
48- or 96-hour study. Even if all the dispersing goes away in 
that period of time, the animal doesn't die, that doesn't mean 
that it is going to survive and grow and flourish and be able 
to escape predators.
    And of course it doesn't answer the question of whether 
that animal might have hatched in the first place if it was an 
egg when it was exposed or whether the larvae would have 
survived. And finally, it doesn't get to the whole ecosystem 
question and how is the ecosystem affected. But even if it is a 
short-term exposure, it can still have effects.
    And your last question on bioaccumulation, it is my 
understanding that these chemicals are not expected to 
bioaccumulated. But I certainly would defer to my esteemed 
panelists.
    Senator Whitehouse. Dr. Overton, I think you have already 
said that. But if you want to just clarify.
    Mr. Overton. We know oil, for example, the polycyclic 
aromatic hydrocarbons don't bioaccumulated. That is what people 
are looking for. Those are the toxic compounds. And we have 
enzyme systems in our bodies, as do the animals, that 
differentiate that. So I have never heard of a case where we 
actually saw in tissue bioaccumulation of these types of 
compounds, except when the fish was tainted; it swam through 
oil and there was oil on it, which is contamination. But that 
is not from a biologic process.
    Having said that, it could be some other issues.
    I will let Ron come in.
    Mr. Kendall. Thank you, Dr. Overton.
    Senator, it is according to what kind of end points you 
want to look at. I agree with the bioaccumulation data. But 
many of these substances in oil are carcinogens. For instance, 
benzene. If benzene is released, and we are exposed. And also 
the polycyclic aromatic hydrocarbons. Yes, we do turn them 
over, an organism can metabolize them. But also an organism can 
metabolize them to be active as a carcinogen. In other words, 
able to form an adduct with DNA.
    So that to me is a consequence of chronic concern. Maybe 
not bioaccumulation, but just because we don't have active 
bioaccumulation doesn't mean we don't have issues in a more 
chronic sense, in addition to the acute sense.
    Senator Whitehouse. Anything to add, Dr. Smith?
    Mr. Smith. No. I agree with both of them.
    Senator Whitehouse. Let me ask a slightly different 
question. The National Contingency Plan prohibits what are 
called sinking agents. It is my understanding that it is the 
nature of oil to float on water, that because of the effect of 
the dispersant, it is broken up into smaller particles that 
have less buoyancy and therefore stay in the water column 
longer, held down by thermoclines and currents and things like 
that. But that it remains inherently buoyant. And all things 
being equal, would ultimately come to the surface.
    At the same time, as Dr. Overton has testified, there is 
this elusive quality to the oil as it weathers. Does a point 
come at which the oil sinks naturally? If there is not, or even 
if there is, is that process accelerated by the use of the 
dispersants with the conclusion reasonably to be drawn that 
there will be more sinking of the oil as a result of the use of 
the dispersants? And in light of the fact that sinking agents 
are forbidden under the National Contingency Plan, is that a 
concern that we should be looking out for?
    Mr. Overton. Every oil spill has sinking issues associated 
with it. This is incredibly light oil; doesn't have much of the 
heavy ends that would cause the oil to sink. The only time it 
can really get heavy enough to stay beneath the water is when 
it is--in stages where it is weathering and washing up on the 
shoreline it gets mixed down in with the sediment and detritus. 
I have seen several pictures of this gunky material that is in 
the little wave rows that are under water.
    Senator Whitehouse. But that shouldn't happen in the deep 
sea, the attachment to detritus.
    Mr. Overton. I have heard several reports of sunken oil. We 
have yet to get a sample. I asked just yesterday at a science 
meeting, has anybody gotten a sample of deep oil. And the 
answer was no. So I would be very surprised, not every case, 
but in this very light oil, remember, all oil is grossly 
different. So you have to handle each spill on a case by case 
basis.
    Senator Whitehouse. Dr. Kendall.
    Mr. Kendall. Senator, it is really complicated. With the 
deep water release you have a very challenged environment. It 
is dark, cold, less oxygen, less microbial activity. A lot of 
these issues are very complicated because we just don't have 
much data as related to the response of the dispersant-oil 
mixture in that kind of high pressure, cold environment. Much 
different than a laboratory acute toxicity test with a shrimp 
exposure.
    So in that perspective, that is what makes this so 
challenging and why it does present itself an opportunity as we 
think about continued deep water drilling, perhaps we need more 
information as to the ultimate ramifications of release of oil 
into the deep water and how we are going to manage that. 
Because quite frankly we know very little about the behavior of 
the oil, even dispersed in the deep water, where it goes and 
how it travels in the currents.
    Senator Whitehouse. And in terms of the--well, I am told 
that there is some sense, perhaps even some observation and 
measurement that we are starting to see some of the oil 
dispersant mixture that is in the water column beginning to 
settle to the ocean floor. There it risks contaminating the 
benthic layer, which I don't know at that depth how rich an 
environment it is. But is the question of sinking oil, assuming 
that that proves out under observation, a particular concern 
that we should worry about? Or is that not something you would 
be concerned about?
    Mr. Kendall. At this point, I have not seen the evidence 
that is occurring enough to be worried about it. Although I 
have seen evidence that oil exiting the wellhead and being hit 
continuously with dispersant has created, as it comes to the 
surface, many different forms of oil. We have seen all the way 
from mats to a chocolatey mousse-like substances, some floating 
a little below the surface, sheens, tar balls. So we have seen 
a lot of different forms of oil, which I think ties back to the 
dispersant use.
    So it is complex. I again don't have any data to support 
this sinking concept. As we look at this whole scenario, this 
is uncharted territory. We need science now.
    Senator Whitehouse. Closing words, I will let Dr. Overton 
say what he wishes. But I think the notion that these are 
uncharted waters, we need to make sure that we apply adequate 
science to it, and we really do not know yet what the long-term 
effects of this will be seem to be the themes that we can all 
agree with about where we stand right now on the dispersant 
use.
    Dr. Overton, what did you want to say?
    Mr. Overton. The glimmer of light in this darkness about 
deep sea oil is a lot of oil entering the Gulf naturally for 
the last millions of years, I have heard estimates of two Exxon 
Valdez size spills annually in the deep water environment. The 
Gulf is, of course, acclimated to do that. And the environment, 
actually these seeps turn out to be a pretty active community. 
The organisms evolve and live on it.
    So there is so much unknown that it is mind boggling. But 
we do know that the Gulf is very active and alive with two 
Exxon Valdez size spills annually for the last millions of 
years. That is way outside my area of expertise.
    But I do want to point out that it is not totally--I mean, 
I totally agree; we need a comprehensive understanding of the 
full impact. Because this is a massive, acute input. And a seep 
is a chronic input. Big, big, difference.
    But there is oil in the deep oceans. And there is some 
evidence of what is going on. But clearly put some of that 
royalty money back to use, to a good use. Thank you.
    Senator Whitehouse. Understood. And I think another good 
closing word is a phrase that Ms. Savitz used, that we are 
continually asking our oceans to take one for the team. And it 
is getting to the point where, as majestic and immense as our 
oceans are, it is becoming time, as our species grows in size 
and environmental effect, to start thinking of ourselves as 
caretakers of our oceans and not just takers from our oceans.
    Whether you go to the far northern oceans and see ice 
sheets that have been there since time immemorial receding, or 
to the tropic seas, where coral reefs are dying and bleaching, 
to in-close coasts, like Narragansett Bay, where mean winter 
water temperatures are up 4 degrees, your colleague, Dr. Perry 
Jeffries, Dr. Smith, refers to that as a full ecosystem shift.
    So it creates dramatic changes. Our fishermen are not 
getting winter flounder any longer. They are getting scup. It 
is a whole new market for them. It is a whole new blow to the 
fishing economy.
    Or to the far seas, where you see the garbage gyres in the 
Pacific. I think we are up to 400 dead zones now charted in our 
oceans. And a more persistent and chronic threat from 
acidification, as we become the most acidic ocean in 8,000 
centuries.
    The oceans have taken a lot for the team. And I appreciate 
all of your work in bringing science and advocacy to bear as we 
approach--if not reach--a tipping point where we can no longer 
simply be takers but must become caretakers. So your testimony 
has been very helpful. Your work is valued. And I appreciate 
that you took the trouble to come here today.
    The hearing will be kept open for 2 weeks for my colleagues 
to submit any further questions for the witnesses that they may 
get answered in writing. And without further ado, we will be 
adjourned.
    Thank you.
    [Whereupon, at 12:22 p.m., the Committees were adjourned.]
    [Additional statements submitted for the record follow:]

                 Statement of Hon. Benjamin L. Cardin, 
                U.S. Senator from the State of Maryland

    I want to thank Chairman Boxer and Chairman Whitehouse for 
holding this critical hearing on dispersant use in response to 
the BP Deepwater Horizon oil spill.
    On April 20 of this year, the BP Deepwater Horizon exploded 
and began this Nation's greatest manmade environmental 
disaster. This catastrophe claimed 11 lives and has left 
thousands of others in turmoil across the Gulf Coast region. 
Our hearts and prayers go out to the families of those who died 
in the BP Deepwater Horizon explosion and to the hardworking 
Americans whose jobs and ways of life are threatened.
    As an oil slick spread across the Gulf, threatening damage 
to the $2.4 billion fisheries industry as well as wetlands, 
beaches, and shipping routes one thing became painfully clear--
we know a lot more about how to drill an oil well than we know 
about how to stop one from spewing oil or how to clean up the 
mess.
    We have all watched a series of science experiments--the 
top hats and the top kills--unfold on underwater seacams. We've 
studied the diagrams in the newspapers and looked to experts on 
TV to explain what's happening 5,000 feet below the surface of 
the sea. Our hopes and expectations have gone up and down like 
yo-yos as some attempts failed, some worked a little bit, and 
finally the flow of oil may be stopped for good.
    But it's not just in their efforts to cap the well that 
responders were forced to make decisions on the fly with too 
little information about what works and what doesn't.
    Since the spill began, somewhere in the neighborhood of 1.8 
million gallons of chemical dispersants were applied in the 
Gulf. These chemicals break the oil into smaller droplets. In 
that form it mixes and dilutes into the water column rather 
than floating on the surface in a big slick. The rationale 
we've been given is that damage to the organisms in the water 
column is a lesser evil than damage to the wetlands and the 
birds and fish that live and breed in them.
    Sadly, there is shockingly little to back up those claims. 
The number of facts we possess about these chemicals is far 
outweighed by the number of unanswered questions. Here are just 
a few.
     We have only this past Monday begun to get answers about 
how toxic these chemicals are when mixed with oil.
     We do not know whether breaking the oil up makes it more 
or less available to fish and other marine animals.
     We do not know how to track or clean up the plumes of oil 
that the dispersants have helped push under the surface.
     We don't know what impact these plumes will have on the 
ecosystem and the food chain of the Gulf over the long-term.
     We have very little information about the effect of 
dispersants applied 5,000 feet below the sea as this was the 
first time it has ever been done.
    The constant refrain we have heard is that dispersants 
present us with a trade-off: protecting the more 
environmentally sensitive wetlands and marshes and the species 
they nurture versus the subsurface water column. But with so 
little known about dispersants and their impact on the 
ecosystem as a whole, I don't know how responders could have 
effectively evaluated the risks and come to this judgment.
    This Committee has reported an important bill that would 
guarantee funding to study and develop better response 
technologies, including more research into dispersants. I am a 
proud co-sponsor of Senator Lautenberg's Safe Dispersants Act 
which would require more rigorous testing before using 
dispersants in the future. These are important legislative 
responses to the disparity between drilling technology and 
response technology.
    But while these efforts to look forward are important, we 
need to be sure that BP and its partners are held responsible 
for the damage dispersed oil will cause to the environment, 
much of which may not be evident until months or even years in 
the future.
    The Water and Wildlife Subcommittee that I chair has begun 
oversight of the process for assessing and repairing damage to 
natural resources and for holding BP and its partners 
responsible to pay for it. As we seek to understand and 
document the damage that's been done to the Gulf, it is 
critical that the impacts of dispersants and dispersed oil are 
front and center. That is the only way we can be sure we will 
restore the health of the Gulf Coast region and a cherished way 
of life to its people.

                 Statement of Hon. Kirsten Gillibrand, 
                U.S. Senator from the State of New York

    Thank you, Madam Chair.
    Chairwoman Boxer and Chairman Whitehouse, thank you for 
holding this very important joint hearing as this Committee 
continues to investigate the BP oil spill disaster, and in 
particular the unprecedented use of dispersants and the 
potential immediate and long-term effects these chemicals may 
have on the environment.
    I want to recognize our expert witnesses as well and look 
forward to receiving their testimony and analysis.
    One hundred and seven days since the BP Deepwater Horizon 
platform exploded, killing 11 rig workers, nearly 2 million 
gallons of dispersant have been used in the Gulf of Mexico to 
fight the worst environmental disaster in our Nation's history. 
Over this time many questions have surfaced, highlighting the 
need to investigate the process used to test the safety and 
effectiveness of dispersants prior to their listing on the pre-
approved National Contingency Plan--Product Schedule, as well 
as looking into long-term impacts that chemical dispersants may 
have on our marine and coastal habitats.
    The answers to these questions are critical as we consider 
possible reforms to the process by which these chemicals are 
considered for emergency response. In addition, more 
information will aid evaluation of the environmental trade-offs 
between use of chemical dispersants versus natural 
biodegradation and other oil spill response tools, such as 
skimming and burning.
    Madam Chair, on the heels of the release of EPA's Phase II 
testing this week, today's hearing will provide the Agency an 
opportunity to clarify what the results say about the immediate 
impacts of dispersants and what I believe is essential--
differentiating between what we know and what we still don't 
know about chemical dispersants.
    It is these long-term unknowns which I am most concerned 
about.
    In the aftermath of the horrible tragedy of 9/11, thousands 
of first responders, clean up workers, and local residents were 
exposed to a host of chemicals and toxic substances in and 
around Ground Zero, and the long-term effects of that exposure 
have resulted in chronic illness and even death.
    As we examine the response to this disaster and the 
processes and regulations that govern how these chemicals are 
approved and put to use, it is clear that much more data is 
necessary, and reforms to the regulatory system might be 
warranted--something I am hopeful this Committee will play an 
active role in.
    Thank you again, Madam Chair and Chairman Whitehouse, for 
calling this hearing, and I look forward to our witnesses' 
testimony.

                                 [all]
</pre></body></html>
